<html>
<title> - EXAMINING NEW EMBASSY CONSTRUCTION: ARE NEW ADMINISTRATION POLICIES PUTTING AMERICANS OVERSEAS IN DANGER?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              EXAMINING NEW EMBASSY CONSTRUCTION: ARE 
                  NEW ADMINISTRATION POLICIES PUTTING 
                  AMERICANS OVERSEAS IN DANGER?

=======================================================================

                                 HEARING

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2014

                               __________

                           Serial No. 113-159

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  
                    
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 10, 2014....................................     1

                               WITNESSES

Ms. Lydia Muniz, Director, Bureau of Overseas Buildings 
  Operation, U.S. Department of State
    Oral Statement...............................................    10
    Written Statement............................................    12
Ms. Casey Jones
    Oral Statement...............................................    18
    Written Statement............................................    20
The Hon. Grant S. Green, Jr.
    Oral Statement...............................................    27

                                APPENDIX

Opening Statement, Rep. Elijah E. Cumming........................    74
GAO report to the chairman of the Senate Foreign Relations 
  Committee and accompanying documents...........................    76
6-23-14 letter to Hon. John F. Kerry from Mr. Issa and Mr. 
  Chaffetz.......................................................    80
Reponding to Committee Document Requests.........................    86
10-9-2007 letter to Condoleezza Rice, submitted by Mr. Cummings..    93
Questions for the record by Mr. Chaffetz to Ms. Muniz............   103
Questions for the record by Mr. Walberg to Ms. Muniz.............   106
``Guide to Design Excellence,'' submitted by Mr. Chaffetz........   110
Questions for the record submitte by Mr. Mica to Ms. Muniz.......   148


  EXAMINING NEW EMBASSY CONSTRUCTION: ARE NEW ADMINISTRATION POLICIES 
                 PUTTING AMERICANS OVERSEAS IN DANGER?

                              ----------                              


                        Thursday, July 10, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Mica, Turner, Jordan, 
Chaffetz, Walberg, Lankford, Amash, Fartenthold, Woodall, 
Meadows, Bentivolio, DeSantis, Cummings, Maloney, Norton, 
Tierney, Lynch, Connolly, Duckworth, Kelly, Welch, Horsford and 
Grisham.
    Staff present: Alexa Armstrong, Legislative Assistant; 
Brien Beattie, Professional Staff Member; Melissa Beaumont, 
Assistant Clerk; Richard Beutel, Senior Counsel; Molly Boyl, 
Deputy General Counsel and Parliamentarian; Sharon Casey, 
Senior Assistant Clerk; John Cuaderes, Deputy Staff Director; 
Adam Fromm, Director of Member Services and Committee 
Operations; Linda Good, Chief Clerk; Tyler Grimm, Senior 
Professional Staff Member; Frederick Hill, Deputy Staff 
Director for Communications and Strategy; Caroline Ingram, 
Counsel; Jim Lewis, Senior Policy Advisor; Mark Marin, Deputy 
Staff Director for Oversight; Laura Rush, Deputy Chief Clerk; 
Andrew Shult, Deputy Digital Director; Rebecca Watkins, 
Communications Director; Sang Yi, Professional Staff Member; 
Jennifer Hoffman, Minority Communications Director; Chris 
Knauer, Minority Senior Investigator; Julia Krieger, Minority 
New Media Press Secretary; Juan McCullum, Minority Clerk; Dave 
Rapallo, Minority Staff Director; and Valerie Shen, Minority 
Counsel.
    Chairman Issa. The committee will come to order.
    Today's hearing, Examining New Embassy Construction, 
questioning, Are New Administration Policies Putting Americans 
Overseas in Danger?
    The Committee on Oversight and Government Reform exists to 
secure two fundamental principles. First, Americans have a 
right to know that the money Washington takes from them is well 
spent, and second, Americans deserve an efficient, effective 
Government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold Government accountable to taxpayers, because taxpayers 
have a right to know what they get from their Government. It's 
our job to work tirelessly in partnership with citizen 
watchdogs to protect these rights and to deliver the facts to 
the American people and bring genuine reform to the Federal 
bureaucracy. This is our mission Statement.
    Today we are examining the results of a Department of State 
2011 decision to transition from a successful program of 
standard embassy design, which stressed security, 
functionality, to a new undefined, loosely defined design 
excellence program, which has led to untimely delays in 
construction as well as increased cost. These delays put 
American diplomats and their staff in an unnecessary risk. 
Keeping them safe should be our primary priority.
    In response to the 1998 East Africa embassy bombings, the 
State Department implemented sweeping reforms in the way it 
constructed new embassies and consulates overseas. Among these 
reforms are the development of a standard embassy design that 
could easily adapt for size and location, the use of design 
built contract delivery method, the implementation of 
performance management and strategic planning principles. These 
reforms produced an impressive record of successful overseas 
facilities construction, leading to embassies and consulates 
being well built on time and on budget and offering superior 
security.
    In 2001, the Government was only building an average of one 
new embassy per year. One new embassy means 200 years to 
replace all our embassies and consulates. By comparison, in 
2006, following the implementation of the new reforms, the 
State Department Bureau of Overseas Building Operations, known 
as OBO, opened an unprecedented 14 new facilities. That same 
year, the independent Government Accountability Office, known 
as GAO, found that the construction time for embassy projects 
had been reduced from 69 months, basically 6 years nearly, to 
36 months, 3 years. In addition to reducing the amount of time 
required to build new embassies, GAO also found that the 
majority of standard embassy design projects it reviewed ended 
up costing significantly less than State Department cost 
estimates.
    The embassy construction program with standard embassy 
design at its core, went on to move a total of 32,000 overseas 
employees into secure facilities by 2013. Starting in 2011, 
however, the State Department decided that a working and 
efficient program wasn't good enough, and although they will 
report that they maintained these tools in their toolbox, they 
have gone to a program known internally as Design Excellence. 
State maintains that the new initiative will incorporate the 
successes of standard embassy design while also allowing for 
more flexibility to adapt its buildings to unique environments.
    In reality, however, the committee has learned that under 
the current management, OBO has decided to transition away from 
standard embassy design programs in favor of a unique, 
architecturally sophisticated and more expensive embassies. 
Embassies look better and cost more.
    Through this move, this may be visually attractive. The new 
design process does not prioritize security, it prioritizes 
appearance. The new standards view security and safety as 
something that must be designed around and disguised rather 
than the first priority.
    I am now going to play a short video featuring architects 
that was produced by the State Department about the Design 
Excellence Program.
    Please play the clip.
    [Video shown.]
    Chairman Issa. I am sorry to have to say this, but were our 
diplomats in Benghazi murdered because their building felt 
hostile in its context and didn't welcome the population there? 
They were vulnerable because they were in a non-standard, non-
secure building, a building in which the refuge point was not 
designed safely, and Chris Stevens died likely of asphyxiation 
as a result of buying, renting an off-the-shelf facility by 
exception to the requirements for a consulate safety 
facilities.
    Did Americans die in the African embassy bombings because 
the buildings didn't do enough, to have enough openness and 
balance of security? Are disguising security measures really a 
good strategy to deter terrorist attacks? In the post-September 
11th world, is it disconcerting to hear State Department 
pushing these arguments? And the answer is yes.
    In May 2013, an internal State Department panel on 
Diplomatic Security organization and management, which arose 
out of Benghazi's Accountability Review Board's 
recommendations, issued a final report. In the report, the 
panel, which was chaired by former Under Secretary for 
Management, here today, Grant Green, raised concerns about 
Design Excellence Program. The panel found no evidence for a 
business case or cost-benefit analysis supporting Design 
Excellence Program. The panel also expressed concern that under 
Design Excellence, fewer facilities can be built over the same 
timeframe, which could leave U.S. Government personnel exposed 
to inadequate facilities for longer periods of time.
    Losing momentum in construction of new or more secured 
facilities on time and at a reasonable cost would leave U.S. 
Government employees in harm's way and expose taxpayers to 
unnecessary fiscal risk.
    OBO received $2.65 billion in Fiscal Year 2014 for embassy 
security and construction and maintenance, a significant 
increase over prior years, but how many embassies you build is 
how many you--large a figure you divide into that amount.
    When the department requested and Congress granted a budget 
increase, it was based on Stated need to construct new secure 
facilities, not to produce more architecturally pleasing ones.
    Today, we are conducting oversight of the State 
Department's Design Excellence Program. Though we have made 
meaningful and very specific document requests to the State 
Department, to date the department has delivered a--has not 
delivered a single document, and this is unprecedented.
    Today, we are today here to examine whether OBO has proper 
management and program in place to preserve the tremendous 
gains made under the standard embassy design Program in 
securing U.S. Diplomats and their families overseas at a 
reasonable cost.
    In closing, you are not the people responsible, but people 
who are listening today and watching today at the State 
Department understand they have stonewalled our request, they 
have even used mail to disguise--ordinary mail to disguise and 
delay responses, and this is contemptible. This is serious 
oversight of the Congress, over the very lives and safety of 
State Department employees. This committee is reaching the end 
of its rope with State Department stalling.
    You stalled on Benghazi, and 2 years after the tragic 
death, we only learned that, in fact, State Department was 
complicit with the White House in attempting to disguise a 
false narrative as to how and why the consulate was attacked.
    You are not the messengers that will be shot, but 
understand, you may very well be back again and again as the 
documents that were requested finally come in. For that, I am 
truly sorry that you may come back here again and again, but if 
we do not receive documents that were requested in plenty of 
time, then much of your testimony today will be a first round 
and not, in fact, the definitive oversight that we expected do 
have.
    With that, I recognize the ranking member for his opening 
Statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Thank you for holding this very important hearing. And I 
thank you, all of our witnesses, for being with us today.
    The horrific bombings of our embassies in Kenya and 
Tanzania in 1998 were a watershed moment for our Nation. 
Following those attacks, the State Department reported that 80 
percent of its overseas facilities did not, I repeat, did not 
meet security standards. Congress authorized billions of 
dollars to expedite embassy construction around the world. As 
part of this effort, the State Department's Bureau of Overseas 
Building Operations launched the standard embassy design 
Initiative to promote the use of standardized designs of small, 
medium and large embassies. This program has been very 
successful in achieving its goals. Since the year 2000, the 
State Department has constructed 111 new buildings and more 
than 30,000 U.S. personnel--and moved more than 30,000 U.S. 
personnel into safer facilities.
    The program also has its limitations. The program, for 
example, typically requires large parcels of land, which 
sometimes result in buildings being constructed further from 
urban centers. Critics contend that this impairs U.S. 
diplomatic efforts overseas, it makes it harder for officials 
to conduct their work. As one commentator noted, the standard 
embassy design Initiative was, ``an expedient solution to an 
urgent problem, but one that narrowly defined an embassy as a 
protected workplace and overlooked its larger representational 
role.''
    So we commend the tremendous progress made under the 
standard embassy design Initiative, but we must always ask 
whether we can do more. We must ask the question whether we can 
do better. On this committee in particular, we must ask how to 
make this program run even more efficiently and even more 
effectively. To me, there are three basic factors we must 
consider: one, security; two, cost; and three, function.
    In 2011, the Department launched a new embassy construction 
effort called Design Excellence. As I understand it, this 
effort aims to provide the same or better security at the same 
or lower cost while improving the ability of American officials 
overseas to do their jobs. This new program seeks to achieve 
these goals by being more flexible than the current program. 
For example, by incorporating more customized designs rather 
than standard designs, the Department may be able to build on 
smaller or irregular lots. This may allow more embassies to be 
located in urban centers to improve the effectiveness and 
efficiency of our missions.
    These more flexible designs also may reduce costs, lower 
initial construction costs and lower long-term maintenance and 
operating costs. For example, the new U.S. embassy in London, 
although not constructed entirely under this new Design 
Excellence concept, shares many of its principles. According to 
the State Department, this new facility will be more secure 
than the existing embassy, it will be more functional and 
effective for our diplomatic missions, it will be completed on 
time, and it will be built at no cost to the United States 
taxpayer. This entire project is being funded through the 
proceeds of sales from existing U.S. properties there.
    The challenge with this program, however, is the lack of 
data. No embassies have been constructed to date based entirely 
on this new concept. The new embassy in Mexico City will be the 
first facility constructed from start to finish under this 
initiative, but it will not be completed until 2019 and 
according to Mr. Green, who's testifying here today, the 
Department has not put together a comprehensive business case 
that analyzes the potential costs and benefits of this new 
program in detail.
    We all know what can happen with the lack of adequate 
planning. Under the previous administration, the new embassy 
constructed in Iraq went wildly over budget, came in well after 
the deadline, and was plagued with corrupt contractors. It 
ended up costing the American taxpayers hundreds of millions of 
dollars more than it should have, and that money could have 
been used to secure other U.S. facilities and American 
personnel throughout the world.
    So as we evaluate the merits and drawbacks of this new 
effort, we must keep one goal at the top of our list: the 
security of our diplomatic officials serving overseas.
    Mr. Chaffetz, who serves as the chairman of our National 
Security subcommittee has asked whether this new initiative to 
customize diplomatic facilities could delay their completion; 
in other words, if customizing is slower than using standard 
designs? Does that keep our people in harms way longer as they 
wait for new secure buildings? I believe that this is a 
legitimate question and a legitimate concern, and I want to 
know from the Department what their answer is.
    Our diplomatic officials deserve the safest embassies in 
the world and they also deserve facilities that help them 
conduct U.S. foreign policy in the most effective and efficient 
manner possible. I truly believe that every member of this 
panel feels the same way.
    And with that, Mr. Chairman, I anxiously look forward to 
the testimony of our witnesses, and I yield back.
    Mr. Mica [presiding]. Thank you, Mr. Cummings.
    I am pleased to recognize the chair of the National----
    Mr. Chaffetz. Mr. Chairman? Mr. Chairman?
    Mr. Mica. Yes.
    Mr. Chaffetz. Prior to that, can I ask unanimous consent to 
introduce into the record a number of items?
    Mr. Mica. Without objection, at this point, do you want to 
go ahead and State your----
    Mr. Chaffetz. I would. I would like to introduce into the 
record, the GAO report on embassy construction dated January 
2001, another GAO report from November 2004, regarding embassy 
construction, an additional GAO report from June 2006 about 
embassy construction, the July 2010 GAO report, new embassy 
compounds.
    I would also like to enter into the record a letter that 
Chairman Issa and myself sent on June 23d, 2014, to Secretary 
Kerry requesting a series of documents that we have not yet 
received. I would also like to enter into the record the 
response from the State Department dated July 3d, which we 
actually received on July 8th of this year.
    And then the final document is the U.S. Department of State 
Bureau of Overseas Building Operations fact sheet: CBS News, 
Are Modern U.S. Embassies Becoming Too Costly to Build? They 
had issued a response to a couple news programs. I would like 
to enter that fact sheet back into the record as well. I would 
ask unanimous consent to do so.
    Mr. Mica. Without objection, the request is agreed to.
    Mr. Mica. And now I would like to recognize the gentleman 
from Utah for an opening Statement.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    I want to be clear. This is the beginning of a series of 
hearings that I think are essential to figure out and get to 
the bottom of the truth of a situation that is--that thousands 
of Americans are facing with their mission and their service 
overseas.
    The Bureau of Overseas Buildings Operations' core mission 
is to place American officials located overseas into safe, 
secure facilities as fast as possible. I would note for the 
record that the State Department budget, overall State 
Department budget since Fiscal Year 2008 has increased more 
than 58 percent, going from $17 billion to over $27 billion, 
and that security funding from Fiscal Year 2008 to Fiscal Year 
2014 has increased more than 100 percent.
    Prior to 2011 and Design Excellence, the Bureau seemed to 
be fulfilling its core mission, constructing secure overseas 
facilities both quickly and effectively; not only that, they 
were doing it on time and on budget, yet in 2011, OBO decided 
to take this rare government success story and replace it. The 
new program focuses instead on constructing fancy buildings to 
enhance the U.S. reputation around the world, all the while, 
many Americans are still waiting for their new secure 
facilities.
    Hailed as Design Excellence, the Bureau has subscribed to a 
view that fancy buildings equal successful diplomacy, that 
officials serving overseas and those whom they serve care first 
and foremost about aesthetics and that aesthetics alone can 
further U.S. diplomatic relations.
    Since the Bureau initiated the major overhaul of its 
overseas construction program 3 years ago, embassy construction 
has slowed significantly while construction costs have sky 
rocketed to millions over initial price tags. Long awaited 
facilities in less secure cities have been delayed for years, 
while American officials overseas, who devote their lives to 
furthering U.S. interests abroad must remain in unsecured, 
dated structures awaiting State to construct safer facilities.
    Earlier this year I traveled to Port Moresby, Papua New 
Guinea, where I saw firsthand the ill effects of the Bureau's 
new Design Initiative. There I saw an embassy construction 
project that was originally slated to cost $50 million, yet 
this has ballooned to a price tag of more than $200 million, 
all in the name of aesthetics.
    During my short visit, there was an attempted carjacking of 
an embassy staffer. This event, along with my conversations 
with foreign service officials stationed at Port Moresby, 
allowed me to see firsthand that having a fancy building is not 
high on their list of concerns. No one told me, ``what we 
really need is a building that represents innovation, humanity 
and openness,'' as Design Excellence purports. They wanted a 
facility that offered safety and security for themselves, their 
families and many visitors.
    Why the Department is allowing foreign service officials to 
remain in unsecured, dilapidated facilities at the price of 
aesthetics is beyond me. We had a chief of mission there who 
has tried to secure his people. They are in an old bank 
building. It is not secure. Those poor people, they work in an 
office, they have to have an armed guard take them from their 
living facilities to the embassy itself, that facility that by 
any standard is not properly secure.
    In a May 2013 internal State Department panel on Diplomatic 
Security organization and management, which was chaired by 
former Under Secretary for Management, Grant Green, issued its 
final report. The panel found no evidence of a business case or 
cost-benefit analysis supporting Design Excellence. In short, 
the program has yet to produce results, but introduces 
significant risks to constructing facilities on time, on budget 
while moving officials overseas into secure facilities.
    Despite requesting--and to my ranking member and my 
colleagues on the other side of the aisle, we cannot do the 
work on either side of this aisle unless we get the documents 
and operate from the same set of facts. We issued a letter the 
third week of July--I am sorry, third week of June asking for a 
series of things in preparation for this meeting. I have been 
working with the State Department for months. They have known 
that I've been curious about this. I have traveled overseas. I 
have visited a number of facilities. Yet despite that, we have 
not received a single document. I got one page that said, we 
will get this to you as soon as possible. And if you look at 
the document request, to have nothing coming into this hearing 
is inexcusable.
    How can you provide us nothing? We don't have documents 
that Mr. Lynch or Mr. Welch or myself or Mr. Walberg can look 
at. How can you do that to the Congress? It is a waste of time 
and money and effort. And we will bring you back, we will do it 
again, but you cannot come to the U.S. Congress when we ask you 
for these basic documents and provide us nothing. Our staff 
worked with you and said, if you have problems with, you know, 
one or two or three of the documents, whatever, just give us on 
a rolling basis what you have, and we got nothing.
    And I think on both sides of the aisle, this is a fair 
criticism. I hope my colleagues will, on the other side of the 
aisle, also, please, help us with that.
    Mr. Cummings. Will the gentleman yield for just 1 second?
    Mr. Chaffetz. Sure.
    Mr. Cummings. I agree that, and I am hoping, Mr. Chaffetz, 
that the witnesses will provide us with reasons as to why we 
have not gotten what we need. You are absolutely right, in 
order to do oversight, we have to have documents.
    And so I yield back.
    Mr. Chaffetz. And I thank the gentleman.
    Let me give you an example. One of the documents we asked 
is this report on Diplomatic Security organization and 
management. It is on the Al Jazeera website, and yet our own 
State Department won't give it to us, so I printed it out on 
the Al Jazeera website. Why do I have to go to Al Jazeera to 
get the information that you have and that you are withholding 
from Congress?
    I will yield back.
    Mr. Mica. Thank the gentleman.
    Mr. Mica. Let me recognize the gentleman from 
Massachusetts, Mr. Tierney. I am sorry. Mr. Lynch.
    Mr. Lynch. Yes. We all look alike.
    Mr. Mica. Mr. Tierney is the ranking member, he is not 
here, of the subcommittee, but Mr. Lynch is here. And you are 
given 5 minutes.
    Mr. Lynch. I'm sure Mr. Tierney would take offense.
    Mr. Mica. I'm sure he would not. You're much better 
looking.
    Mr. Lynch. Thank you, sir. I appreciate the gentleman's 
courtesy.
    Let me just say to begin with, we really do need to have 
prompt, accurate response as an oversight committee regarding 
these matters. It helps no one to have the allegation of 
obstructionism cast back and forth here.
    So, I think that some of the gentleman's from Utah's 
complaints are well founded about the responsiveness of the 
State Department to our requests. So we need to do better. OK? 
And that's from everybody up here. There's just--this committee 
is coming up on too many instances where there has been a long 
delay in providing information. Things blow up and then it 
looks like you're being less than honest and less than 
forthcoming, at least with respect to the conduct of this 
committee.
    I will say that like the gentleman from Utah and many 
members on this committee, I've spent a lot of time at 
embassies in some of the tougher spots around the world, and 
we've had an ongoing debate about how to secure the personnel 
at our embassies.
    And it's a difficult problem, and I don't think there's any 
cookie cutter approach to this and I know that there's an 
earlier--before the more creative design initiative was 
adopted, we also had during the 110th Congress, this was during 
the Bush Administration, we conducted an extensive 
investigation into the reports of the rampant waste, fraud and 
abuse around the construction of the new embassy compound in 
Baghdad, Iraq, and I've spent many nights there at the old 
embassy, the new embassy.
    That was a huge expense. It's going to be very difficult to 
staff. It's got more staffing requirements than the White 
House, to be honest with you; I think 3,400 people as opposed 
to, you know, 1,700 at the White House. It's just, you know, 
it's just unreasonable to expect that that is suitable to our 
requirements in Baghdad.
    You know, we've had situations in Yemen. I'm happy to hear 
that--and when I was there, we had, you know, reconstruction 
efforts and strengthening efforts there in Yemen, with good 
cause. We had fruitful discussions, up to a point, with the 
Syrian Bashar al-Assad about relocating our embassy there in 
Damascus. We don't have it there anymore. I know it's not 
staffed, but we're going to have to get around to relocating 
that. It's far too vulnerable to car bombs. We're right on a 
main street. We've got to look at that again.
    And I do support having a more remote, not necessarily 
remote, but a little bit of a setback for our embassies in and 
around the world, so, and that goes for not only Damascus when 
we eventually get back in there, but also Beirut, but there has 
been a profound lack of oversight in the construction process.
    One of the things I used to do, you know, I was a 
construction manager and that's what my undergraduate degree is 
in, so I've had an opportunity to see how we're going about 
this. And there is, to put it bluntly, there is great room for 
improvement here in terms of how we're going about spending 
this money and as I said before, the sort of cookie cutter way 
that we've tried to approach this in the past.
    I'll be very interested in your answers to a number of 
questions regarding some of these arrangements. I know that in 
the case of the Baghdad embassy, we had $130 million plus in 
questionable charges by the first Kuwaiti corporation, that was 
allegedly engaged in a $200,000 bribery and kickback scheme in 
order to obtain subcontracts.
    We've had flagrant oversight lapses on the part of the 
State Department, and that had been previously warned by the 
Defense Department audit agency, and it's just been a series of 
missteps on our part.
    And underlying all of this is just a new world out there in 
terms of the risk to our people in these embassies. Benghazi is 
one example, although that was not an embassy, still, it. You 
know, it shows us what can go wrong and we have a real 
obligation here to reassess the defense protocols that we have 
at our embassies, and that obviously includes how we're 
building them and what kind of apron of security that we 
provide for these facilities.
    So. We've got to get smart about this in a big hurry. We've 
got to be more effective with our architectural design, and 
we've got to be much more wise with the expenditure of taxpayer 
money in support of these efforts. We can't afford to--we can't 
afford to fail.
    With that, Mr. Chairman, I'll yield back.
    Chairman Issa [presiding]. I thank the gentleman. I thank 
him for his important comments.
    And, Mr. Lynch, I thank you for your being a willing 
traveler to tough places. Over the years, you and I have had 
the privilege of going to some of those places.
    Mr. Lynch. Thank you.
    Chairman Issa. We now welcome our witnesses. Ms. Lydia 
Muniz is the Director of the Bureau of Overseas Building 
Operations at the United States Department of State, and again, 
OBO, as it's known. Mr. Casey Jones is a Deputy Director of the 
Bureau of Overseas Buildings and Operations at the United 
States State Department. And the Honorable Grant S. Green, Jr., 
is the former Under Secretary for Management at the Department 
of State.
    Lady and gentlemen, pursuant to the committee rules, would 
you please rise to take a sworn oath, and raise your right 
hands, please.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth? Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow sufficient time for questions and answers 
on both sides, I would ask that--I'd let you know that your 
written Statements are already part of the record, and so 
please use your 5 minutes either to read a portion of that or 
to other comments as you please.
    Ms. Muniz.

                       WITNESS STATEMENTS

                    STATEMENT OF LYDIA MUNIZ

    Ms. Muniz. Thank you.
    Chairman Issa, Ranking Member----
    Chairman Issa. Oh, and I must tell you, these mics, really 
want them closer to you, not further away in order to be heard, 
so if you will pull it significantly closer, it will make it 
easier.
    Ms. Muniz. Like this.
    Chairman Issa. Thank you.
    Ms. Muniz. Chairman Issa, Ranking Member Cummings and 
committee members, I appreciate the opportunity today to 
discuss the State Department's program to build safe and secure 
facilities for our U.S. Government staff serving abroad.
    I am Lydia Muniz, Director of the Bureau of Overseas 
Buildings Operations. I've been with OBO since 2009, and came 
to the Department with nearly 20 years of Government and real 
eState development experience.
    The State Department is deeply committed to the safety and 
security of our personnel overseas. Every new construction 
project that OBO undertakes must and will meet the security and 
life safety standards required by law, by our colleagues in the 
Bureau of Diplomatic Security and by OBO. Security is the 
cornerstone of our building program, and because we have an 
obligation to the American taxpayer to be efficient in 
constructing our facilities, we are committed to ensuring that 
we neither compromise the speed at which we can deliver safe 
facilities nor incur unjustified and unnecessary costs.
    OBO facilities serve as the overseas platform for U.S. 
diplomacy. They provide access to consular services, promote 
American commercial interests, ensure food and product safety 
with trading partners, and implement programs critical to our 
national security interests. Since Congress enacted the Secure 
Embassy Construction and Counterterrorism Act, or SECA, in 
1999, OBO, has with the continued support of Congress, 
completed 76 new embassies and consulates, with 16 more under 
design and in construction. We have moved over 31,000 employees 
to more secure facilities, with plans to move another 14,000 
within the next 5 years.
    After 10 years of a successful building program, we 
examined our work and instituted an initiative that deployed 
the lessons learned over the years; this includes how best to 
construct facilities that meet the requirements of our missions 
abroad, most critically safety and security, but also 
durability, efficiency, flexibility, proximity for personnel 
and visitors, and a platform that serves the needs and mission 
of America abroad. We know that security, safety and excellence 
are mutually reinforcing, not mutually exclusive.
    The standard embassy design, or SED, standardized facility 
requirements and the way in which they were met, and created a 
discipline within OBO to deliver those facilities. Using the 
standard embassy design, OBO came to better understand the 
common requirements of missions, like consular sections and 
specialized office space, but we also learned that while 
embassies and consulates have a number of things in common, 
they also vary widely. Their missions in dense urban 
environments and in rural areas, posts with as few as three 
staffs to as many as 2,500, some have consular sections with 
one window, others have more than 100.
    So while the SED's provided consistency, we learned that a 
standard design did not always permit OBO to meet the very 
needs of the mission or to deploy taxpayers' dollars in the 
most cost-effective manner. We learned that we should take into 
account local conditions and materials in order to have 
buildings perform better in the long-term, and to consider not 
only first costs, but long-term operating costs.
    And we recognized that our facilities not only meet the 
functional requirements of our missions, they represent the 
United States to the rest of the world. Our embassies are the 
most America that many who live around the globe will ever see. 
At a time when it is increasingly important that we provide for 
the security of our citizens at home through diplomacy and 
engagement with people around the globe, embassies that convey 
U.S. values, culture, strength and know-how can be instrumental 
in that effort.
    All of this can and must be done in meeting all of the 
department's security standards and without compromising on 
schedule or cost. We must protect our staff abroad, and using 
the lessons learned over the decades, we can design and build 
embassies and consulates that serve our mission and colleagues, 
are a better value to the U.S. taxpayer, and make better use of 
scarce resources in the short and in the long-term.
    I would like to thank Congress for their consistent support 
of OBO's building program, including in Fiscal Year 2013 
providing increased funding, to help our program keep apace of 
inflation.
    In these uncertain times, we know that our facilities must 
keep our staff safe and secure. The Excellence Initiative will 
ensure that, will meet the needs of our missions and will 
provide the best value to the American taxpayer.
    Chairman Issa. Thank you.
    [The prepared Statement of Ms. Muniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Mr. Jones.



                    STATEMENT OF CASEY JONES


    Mr. Jones. Good morning, Chairman Issa, Ranking Member 
Cummings and members of the committee. Thank you for the 
opportunity to appear before you today.
    I am a Deputy Director in the Bureau of Overseas Buildings 
Operations at the U.S. Department of State and have served in 
this position since October 2013.
    The safety and security of the individuals who work for the 
U.S. Government agencies overseas and creating and maintaining 
safe and secure facilities in all parts of the world is 
critical to the Department. I know firsthand the reality of 
living in a high threat environment as part of a foreign 
mission. As a child, I lived in Pakistan through periods of 
marshal law and civil unrest. In Islamabad, we lived on the 
grounds of the embassy, returning to the United States just 
months before it was stormed in November 1979. This experience 
had a profound impact on me.
    Security has been OBO's top priority since the 1998 
bombings of the American embassies in Dar es Salaam and 
Nairobi. For 10 years, OBO executed a successful building 
program utilizing a standard embassy design. This work is now 
being enhanced by our Excellence in Diplomatic Facilities 
Initiative, which will build the next generation of safe and 
secure facilities.
    I want to assure you that the Excellence Initiative does 
not diminish the safety and security of new embassies. Every 
office within OBO, real eState, design, engineering, 
construction, facilities cost, and security was involved in 
developing the initiative, as well as collaboration with other 
bureaus, including Diplomatic Security. Briefings on the 
proposed improvements were provided to the department, Congress 
and the industry at large.
    The Excellence Initiative is about constructing cost-
effective buildings, buildings that meet all of the 
requirements for our missions, safety and security chief among 
them, but including function, durability, flexibility and 
efficiency. DS and OBO worked together throughout planning, 
design, construction and day-to-day operations of diplomatic 
facilities.
    I also want to assure you that the Excellence Initiative 
does not lengthen the delivery time of new embassies and 
consulates. OBO uses two common delivery methods for its 
projects. Both methods have time, cost, design control and risk 
implications. That must be evaluated. The choice of which to 
use depends on the unique conditions of the building project. 
Under Excellence, OBO will utilize whichever method is most 
cost-effective, most expedient and reduces the most risk.
    Finally, I want to assure you that Excellence does not 
increase project budgets of new embassies and consulates. OBO 
establishes project budgets whether for an Excellence project 
or a standard embassy design that are based on scope, local 
conditions and prior year cost information.
    OBO has a depth and breadth of data that allows us to be 
very accurate in setting project budgets for new, safe and 
secure buildings, but OBO cannot anticipate every potential 
impact. Real world events, unforeseen cost increases in 
materials, civil unrest, currency fluctuations, and natural 
disasters can affect our projects.
    We are also not immune to policy changes. If the U.S. 
Government decides it is in the Nation's best interests to 
significantly increase or decrease the size of a mission or 
change the functions located at a post, the cost of our 
projects are impacted, sometimes significantly.
    An example of this is the new embassy compound in Port 
Moresby. In 2011, OBO awarded a contract to build a standard 
lock-and-leave embassy. In spring 2013, with construction well 
underway, the U.S. Government made two policy decisions that 
significantly changed the project.
    First, a Marine guard detachment was added, and second, 
staff population was increased by almost 75 percent. The cost-
benefit analysis conducted by OBO concluded that the additional 
requirements could not be accommodated in the existing contract 
without incurring an additional $24 million over the de-scoping 
scenario. As a result, OBO stopped the remaining work, and will 
re-compete a modified project with the additional requirements. 
This option utilizes what has already been built onsite, 
provides the best value, and yields the best end product. 
Continuing with the contract as is would not have provided 
safer, more secure facilities any faster.
    As Deputy Director at OBO, I want to emphasize that I take 
the responsibility to provide safe and secure facilities very 
seriously and that there has not been, nor will there be, a 
move away from that critical mission.
    Diplomatic facilities are an essential function of our 
national interests. The individuals who represent the U.S. 
deserve safe and secure workplaces and as good stewards of 
taxpayer dollars, it is our goal to see that those resources 
are invested wisely.
    Thank you.
    Chairman Issa. Thank you.
    [The prepared Statement of Mr. Jones follows:]    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Issa. Mr. Green.



            STATEMENT OF THE HON. GRANT S. GREEN, JR.


    Mr. Green. Mr. Chairman, members of the committee, I am 
pleased to be here this morning to respond to your questions 
related to embassy security.
    My background, part of which has been mentioned, I served 
as Under Secretary of State for Management for 4 years under 
Colin Powell, I subsequently served as a commissioner on the 
Commission for Wartime Contracting in Iraq and Afghanistan, and 
most recently chaired the panel that has been talked about 
here, which looked at the management and the organization of 
Diplomatic Security. This panel grew out of the Accountability 
Review Board following Benghazi that was chaired by Admiral 
Mullen and Ambassador Pickering.
    As we on the panel progressed with our deliberations, we 
looked at one thing, and we looked at many things, but one 
thing we looked at was the relationship of Diplomatic Security 
to other bureaus and organizations both within the State 
Department and across the Government where appropriate. 
Obviously OBO, a close partner of Diplomatic Security, was 
included in that.
    As we talked to many DS employees and others who are 
familiar and certainly concerned with security issues, it 
became evident that they had security concerns with certain 
aspects of Design Excellence.
    You know, we can talk about the importance of security, the 
President includes it in his letter to all chiefs of mission, 
Secretary Kerry has Stated publicly that that is his most 
important mission, is to protect the people working for this 
country overseas.
    But when we hear from people who are close to DS, OBO 
operations and they have voiced concern, then we were 
concerned, and as a result, we came up with a number of 
observations and a recommendation. It wasn't to throw the baby 
out with the bathwater, it wasn't to say do away with this 
crazy scheme and go back to standard embassy design.
    All we said was, State Department, you need to take an in 
depth look at the security implications of this program.
    So with that, Mr. Chairman, I conclude my opening remarks 
and would be happy to answer any questions.
    Chairman Issa. Thank you.
    Chairman Issa. Ms. Muniz, I just want to go through briefly 
one embassy, not including the ones that were primarily here. 
On a bipartisan basis, with staff from both sides, I went to 
London and I looked at the facility there, and we understand 
that is an iconic facility.
    The justification for a glass curtain wall building, and a 
stunning appearance and an even a moat has a great deal to do 
with our relationship with our most close--one of our most and 
perhaps our most close ally. Is that correct?
    Ms. Muniz. Yes. I think that's accurate.
    Chairman Issa. And it's not part of either standard design 
or Design Excellence? It has its own purpose.
    Ms. Muniz. That's accurate.
    Chairman Issa. Let me ask--yes. Would you turn your mic on 
when you answer, please?
    Ms. Muniz. Yes, that's accurate.
    Chairman Issa. But I have one question, which is, do you 
believe that it is a good policy for Congress to ever say you 
can spend all that you get from the sale of other buildings, 
not a penny more, and no encouragement to spend a penny less? 
And that's really a yes or no. Do you believe that is a good 
policy, because that's what they're doing there?
    Ms. Muniz. I think that, as you noted, London is unique, 
it's----
    Chairman Issa. I know, but I really want the yes or no, 
because I want to get on with the rest of the time.
    The Congress made a decision and State Department is 
spending every penny, adjusting up or down based on how much 
money they have, they're spending every penny that they got 
from all the revenues that they had on there. They're not 
spending any more, because they are prohibited by Congress, but 
they're not spending any less; and we watched as they're adding 
and subtracting to reach that.
    Do you believe that that is an appropriate way to design 
any building? Yes or no, please.
    Ms. Muniz. I can't answer yes are or no. These are unique 
circumstances. London----
    Chairman Issa. Ma'am.
    Ms. Muniz [continuing]. Allowed us----
    Chairman Issa. The issue--no, no. And my time's limited. Do 
you believe that that is appropriate doing it that way?
    First of all, do you disagree that that's what they're 
doing, is they're spending exactly what they got from the 
sales? Yes or no?
    Ms. Muniz. They're spending marginally less. The budget has 
been fixed, and there should be additional income coming from 
the sales of proceeds back to the U.S. Government.
    Chairman Issa. I wish that was so. That's not the report we 
got on a bipartisan basis less than 2 weeks ago.
    OK. I'll consider that you're not going to answer the other 
question yes or no, but I'll answer it for you. No, it is not 
appropriate to say spend all the money you can get. They could 
have spent $200 million less and we could have built two other 
embassies. If they needed $200 million more to do it right, we 
should have considered that and it should have been made in a 
request. That is not how the private sector builds corporate 
headquarters or anything else. I don't want to get into the 
details of that building, because it's not a part of it here.
    Mr. Green, basic, basic question that you found in your 
study. Standard embassy designs have a certain look, which 
could be modified quite a bit, but is it fair to say that what 
they look like to a great extent is like industrial, commercial 
office buildings all over America, what is commonly called 
Class B or concrete tilt-up buildings that are made to look 
nice, but they're ultimately fairly industrial?
    Mr. Green. I don't think so. I think when we adapt the 
facade of a building, the goal there was to fit it in with the 
culture, the country, to make it as unattractive as we possibly 
could, and in my time at the Department, I visited more than 
100 of our posts overseas.
    Chairman Issa. Well, how about Burkina Faso?
    Mr. Green. About which?
    Chairman Issa. Burkina Faso. If we could put one of those 
up. I think it's important, because quite frankly, Design 
Excellence seems to be about pretty look. You see those two 
buildings?
    Mr. Green. Uh-huh.
    Chairman Issa. Now, the State Department has not given us 
any of the information for us to evaluate the cost per desk or 
anything else, but, which makes it very hard to do some of the 
assessment, but your study shows us that they're not cost 
justifying. The building on the top is made with non-local 
materials that are only made in three places in the world, this 
concrete facade. It clearly is an architectural design 
rendering to a great extent, not necessarily all functional. 
It's not a standard build. It cost a lot of money and it's in 
an area in which there are more security guards than there are 
embassy personnel at desk. It's a high risk area.
    Is that justified versus a standard built, in your opinion? 
If I need 550 people to provide security for 400 embassy 
personnel, do I in fact have a place in which the priorities 
should be on looking pretty for the population so that they can 
be happy with us?
    Mr. Green. Not in my opinion.
    Chairman Issa. Security, if it takes 550 people to protect 
400 people, is that a place in which there's any question about 
what the priorities should be?
    Mr. Green. No. The priority has got to be security. In the 
department, there's always this argument, whether it be with 
embassy construction, or anything else, we used to--or housing, 
for example. We used to have those who would say, we need to be 
out in the community, we need to live out in the community. 
There were others who say, I don't want to live out there, 
because of the hazard. I want to be on a compound.
    If you pin people down, security is the most important to 
them. So----
    Chairman Issa. Well, let me just ask one closing question, 
because I have picture after picture, cost after cost, and we 
are going to have some of these folks back here once the State 
Department delivers the actual arithmetic so that we can 
evaluate it.
    But, Mr. Green, I know that you were above the folks here, 
and so you oversaw people doing the jobs of Muniz and Jones, 
but from a construction standpoint, from what you were trying 
to achieve, during your tenure, weren't we essentially making a 
decision to cut out architectural fees and changes that made 
embassies dissimilar versus similar?
    Mr. Green. I don't know that we were trying to make 
embassies similar, but we were trying to stay within a fixed 
amount of money so we could build as many embassies as we could 
to get as many people out of harms way as we could. If they 
weren't as beautiful as somebody might like, that wasn't the 
main factor. The main factor was get embassies built.
    As you mentioned, there were--after the Inman report after 
the Beirut bombing, we had 120 some odd embassies that were 
rated unsatisfactory, and what we wanted to do was get as many 
of those fixed as we could.
    And, you know, as I said, I've been to 100 of our posts. 
Are all of them beautiful? No, they're not beautiful, but I 
think--in fact, I opened Dar es Salaam in Nairobi after the 
bombing when we opened new embassies there, and they're fine.
    Chairman Issa. Well, I want to give you a chance to answer, 
Ms. Muniz, but I want to get two things into the record.
    First of all, the pretty building on the top is in the 19th 
most dangerous highest priority area, so this is an embassy 
that needs to be built sooner rather than later and which 
security is clearly one of our greatest concerns.
    Second, I want to mention that my trip to Britain was 
interesting in that as the Ambassador and key staff went 
through and explained to me how awful the embassy was and how 
desperately we need to replace it, he also, of course, reminded 
me that this rather ugly, dysfunctional building was designed 
by the man that designed Dulles Airport.
    That it was built during a time in which Design Excellence, 
gorgeous buildings, were in the modernist, eye of the beholder, 
and we were building them all over the world, and that, in 
fact, Design Excellence is in fact inherently like a designer 
suit, it ages more quickly than if you will, the industrial 
look.
    But if you have any other answers, I wanted to make sure I 
gave you that opportunity.
    Ms. Muniz. Thank you, Mr. Chairman.
    What I would like to add--what I'd like to go back to, 
really, when talking about this project is that as my 
colleague, Casey, noted, we base our budgets on standard 
embassy design budgets, on the number of desks, on the local 
context, which has us taking into account distance to get 
materials, we fix that budget and we work within that budget.
    So the building that you see that might be more attractive, 
might be more tailored to the missions in question----
    Chairman Issa. OK. Well, when we've----
    Ms. Muniz. Would cost no more----
    Chairman Issa [continuing]. When we have the numbers----
    Ms. Muniz [continuing]. Than the standard----
    Chairman Issa. Well, when we have the numbers, we can have 
that discussion. I would love to hear your answers today, but 
since the State Department has refused to comply with a lawful 
request for any data, even one shred of it, we only have, if 
you will, sort of the whistleblower side of it, we don't have 
your side, but I will say that to fly in concrete from Europe 
for the top building, to me is a questionable item that I'm 
going to want to see why those materials were chosen over 
materials that could be provided more locally.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I am sitting here, I want us to take a deep breath and 
focus on what you said, Mr. Green: security. When all is said 
and done, a lot of these buildings will be in existence when 
we're dead and gone.
    And this is our watch, we have a moment in time right now 
to get this right, not just for our present diplomatic corps, 
but for generations yet unborn.
    And I want us to stay focused, because I think we can kind 
of drift off and not zero in and that's why I think one of Mr. 
Chaffetz's comments about the data that we've asked for is so 
important, so that we can try to figure this thing out using 
the best information that we have in the time that we have.
    And so with that backdrop, I want to go to you, Mr. Green 
and let me start by--you know, Congressman Chaffetz, who serves 
as the chairman of our national security subcommittee, has 
raised a legitimate question about whether this new Design 
Excellence Initiative to customize diplomatic facilities could 
delay their completion.
    Mr. Green, you raised a similar concern in your report, 
which said this, ``despite schedule, cost assurances from OBO, 
there is concern that fewer facilities'' and you just said this 
a minute ago, too, ``embassies, consulates can be built on the 
same timeframe, leaving more personnel exposed in inadequate 
facilities for longer periods of time.''
    Mr. Green, can you elaborate briefly, and what are some of 
the challenges with customizing versus using standard designs? 
And you said a moment ago that you didn't say throw the baby 
out with the bathwater, you said we need to make, you said, 
certain recommendations and I assume that you were saying, 
look, we just want to be practical----
    Mr. Green. Yes.
    Mr. Cummings [continuing]. To get back to that security 
theme, cost and function so that we can be effective and 
efficient in what we're doing. So could you comment, please, 
sir?
    Mr. Green. Sure. Yes, sir.
    The observations that we made, and this is in the report, 
are certainly not all inclusive. This wasn't six smart guys in 
the mess hall that dreamed these things up. These were based on 
comments we got from security experts who work with OBO on a 
daily basis. I would tell you for one, if you could build a 
beautiful embassy under Design Excellence and you can do it as 
fast and it doesn't cost anymore, I'm all for it. I don't care. 
I don't care what we build.
    But what I am concerned with, it's just not logical to the 
people we talk to and frankly to me that you can build under 
Design Excellence, as quickly and as cost effectively as we did 
under Standard Embassy Design. You know, to pull a design off 
the shelf and build it and adopt the facade in a way that is 
fitting with the local--the country as opposed to going through 
a design bid/build with architects and builders, it just 
doesn't make sense. Now, if you can show me with facts and 
figures that it does, I'll salute and agree with you.
    Mr. Cummings. There's one thing that you did not mention, 
and I assume you meant to, function, too. You talk about 
security, No. 1----
    Mr. Green. Sure.
    Mr. Cummings [continuing]. Cost and function. So you want 
to make sure they function properly, too.
    Mr. Green. Yes, absolutely. And I think that, you know, 
Standard Embassy Design was a living, breathing thing. I mean, 
there were reviews done constantly and, sure, was everything 
perfect? No. The ceiling is too high. We can't put the light 
bulbs in, or we don't have enough parking or the medical 
facility is not large enough and those challenges were 
addressed periodically and Standard Embassy Design was modified 
accordingly.
    Function is certainly important, and I think that the 
director mentioned 100 consular windows versus one. That 
should--and maybe that happened. But that should be worked out 
as you're planning the design in a certain country that says, 
you know, five consular windows aren't enough for us. And 
hopefully within the budget we can adopt that.
    Mr. Cummings. Now, Ms. Muniz, what's your response and, 
will the Design Excellence program delay embassy construction?
    Ms. Muniz. My response is no, but I need to go into detail, 
which can sometimes lose folks, but if you would bear with me.
    First of all, we use two different methods to deliver 
projects at OBO. We use design/build and we use design bid/
build. Sometimes we don't have a lot of advance notice. 
Sometimes we need to turn around and we need to go into Tripoli 
immediately, set up an embassy and move quickly. But because 
our appropriation is regular, it allows us to do advance year 
planning very easily.
    So what we're able to do is, we know in any given Fiscal 
Year that we're going to do these five embassies, we design 
before. But because we are going to get under the excellence 
initiative to 100-percent designs, when we award the contract, 
the duration from award to cutting the ribbon and letting 
people into that safe, secure facility is actually shorter. 
Because we will only be doing construction; we will not be 
doing design and construction after the award of the project.
    If we don't have a lot of advance notice, I think that we 
really do need to go back to design/build and re-examine the 
type of building that we would put in place. But, I think 
what's great about this initiative and this new approach is 
that it will allow us not only to meet the same schedules but 
in cases to improve on them.
    Mr. Cummings. Now, what do you have to say to that, Mr. 
Green?
    Mr. Green. Well, I mean, I'm not----
    Chairman Issa. Your microphone, please.
    Mr. Green. I'm not an architect, nor am I an engineer. And 
if OBO contends that they can build things as quickly, you 
know, I may or may not question it. All I'm saying is the folks 
that work with OBO on a regular basis questioned it.
    Mr. Cummings. Now, Ms. Muniz, the new United States embassy 
in Iraq was built during the previous administration. Is that 
right?
    Mr. Green. Uh-huh.
    Mr. Cummings. Before the department started the Design 
Excellence program.
    Ms. Muniz. Yes, that is----
    Mr. Cummings. That project was fraught with delays, cost 
overruns, contractor corruption. In fact, this committee found 
7 years ago back in 2007 that the project was delayed 16 months 
and the cost to the United States taxpayer was $144 million 
more than originally projected. So the issue of delays and 
increased cost can occur regardless of whether the department 
uses Standard Embassy Design, concept or Design Excellence 
concept. Would you all agree on that? Do you agree?
    Mr. Green. I would agree. Baghdad was kind of a unique 
situation. Once it had been planned initially, then the Defense 
Department wanted to put more people in there so we had to 
modify the size of it. And I'm sure there were many, many other 
things that, you know, I want to be there, I want 15 desks 
instead of three. It was a moving train, believe me.
    Mr. Cummings. Ms. Muniz?
    Ms. Muniz. I think that's accurate. In fairness, as my 
colleague, Mr. Jones, pointed out, we build in different 
environments. There are all kinds of things that our projects 
are subject to which can complicate delivery. The Department, 
the country can decide to change the staffing pattern 
significantly and require us to modify. War, shortages, natural 
disasters can impact those schedules.
    So while I haven't looked at the Iraq project in detail, 
I've looked forward since coming to OBO, I do think that in 
difficult environments, as folks who know construction 
firsthand, those can have a real impact.
    But I do think that having a dialog with Congress, with our 
appropriators, our authorizers, and this committee, on such 
changes so that people understand those changes I think can be 
helpful.
    Mr. Cummings. Mr. Chairman, as I close, I ask unanimous 
consent to enter into the record a letter sent to the State 
Department on October 9, 2007, by the committee's previous 
Chairman Henry Waxman describing in detail the many flaws with 
the construction of the U.S. Embassy in Iraq in 2007.
    Chairman Issa. Without objection, so ordered.
    Chairman Issa. And if the gentleman will yield.
    Mr. Cummings. Of course.
    Chairman Issa. I want to join with you. I was on the 
committee at that time, Chairman Waxman did a great job of 
exposing that our wartime construction of an embassy as 
Fortress USA, as a base for when we departed and with vague 
ideas of what they wanted at the beginning, and ever changing 
was the best example of a bad example of how to build an 
embassy. I think the ranking member has made a good point that 
that is exactly what we don't want to be doing.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you. If I could have the indulgence 
for 30 seconds to followup on the ranking member.
    Mr. Green, I just want to have the public sort of 
understand something about the Standard Design. If we were 
looking, let's say, a 737 aircraft, something most people have 
flown in that are listening, they started making them in the 
late 1960's, early 1970's, and they are very different than 
they are today. But it's a continuous design that at any given 
time the 737 is a standard built.
    Would that be somewhat similar to how the evolution of 
standard built goes, is that what you build 20 years from now 
would be, the standard would change over time, but the idea is 
to effectively have a continuously improving product like a 737 
Boeing aircraft that everyone kind of recognizes it but it 
keeps getting better over time?
    Mr. Green. I think that's a fair analogy.
    Chairman Issa. OK. Well, and Ms. Muniz, same idea. We all 
understand it's not a fixed design but an evolution of a 
standard build. Thank you.
    Mr. Chaffetz.
    Mr. Chaffetz. I thank the chairman, and I thank you for 
holding this hearing. It is pivotal.
    Ms. Muniz, in response to a CBS morning news program and a 
CBS evening news program, State Department was able to put out 
its fact sheet. They did produce those documents, but, again, 
no documents produced to the U.S. Congress. In this you say all 
facilities will be delivered on the same, if not shorter 
schedules. There's no evidence to the contrary.
    Do you have any examples of a Design Excellence building, 
that is coming in on time or as a shorter schedule than 
Standard Embassy Design, and do you have any examples of any 
building that has been built for less-than money or less than 
the money that we would have spent under Standard Embassy 
Design?
    Ms. Muniz. Thank you for that question. What I would like 
to go over is that, as the committee knows, the process to----
    Mr. Chaffetz. No, no, no. I'm sorry. I have 5 minutes, and 
I've got like 100 questions. Do you have a single example of 
success as you have Stated it?
    Ms. Muniz. Yes.
    Mr. Chaffetz. Which one?
    Ms. Muniz. There are Early Excellence Initiative projects. 
There was one in 2011, one in 2012. There are three in 2014.
    Mr. Chaffetz. I need the names of these facilities.
    Ms. Muniz. We could submit that for the record, and I will 
take a bit more time to go over those. All of those are on 
budget and on schedule.
    Mr. Chaffetz. Hold on. I'm sorry, but you have already 
taken up a minute and-a-half. You're going to give us the names 
of these buildings, and when will you give them to us?
    Ms. Muniz. 2011 is----
    Mr. Chaffetz. No, no, no. You said you want to submit them 
for the record. When are you going to give them the Congress? 
What are the names of these buildings?
    Ms. Muniz. I could give them to you now or we could leave 
it----
    Mr. Chaffetz. Go ahead.
    Ms. Muniz. 2011 is Vientiane; 2012 is Emabon; 2013, 
N'Djamena, Nouakchott, Paramaribo. Those are Early Excellence 
Initiatives. The first projects that will be awarded under the 
full initiative and the new standards are in Fiscal Year 2014. 
Those are typically awarded at the end of the fiscal year, and 
they are all on budget and on schedule and we will provide 
additional data about those projects as soon as those projects 
are awarded.
    Mr. Chaffetz. Let's go to Port Moresby for a second, 
because I had a chance to go visit there in February. When was 
that originally slated to be completed?
    Ms. Muniz. In 2014.
    Mr. Chaffetz. May 2014, correct?
    Ms. Muniz. Yes.
    Mr. Chaffetz. And now when is it slated to be completed?
    Ms. Muniz. In early 2018.
    Mr. Chaffetz. So they're having to stay in the same 
facility. It is exceptionally dangerous, correct?
    Ms. Muniz. The reason Port Moresby is on the vulnerability 
list and getting a new embassy is because it's dangerous.
    Mr. Chaffetz. When did you get the final determination that 
the Marines were going to be located at Port Moresby?
    Ms. Muniz. The embassy that is being built in Port Moresby 
was based on numbers that were provided in 2008. As the 
committee members know, the numbers and the program for 
embassies is not set by OBO. It's set by the policy side of the 
Department.
    Mr. Chaffetz. I'm asking you, when did you get notification 
that Marines would be located at Port Moresby?
    Ms. Muniz. We were awarded the contract in 2011. Two years 
into the construction of that project we were notified that 
Marines would be going to Port Moresby and that a staff of 41 
had increased by 31. Including the Marines, that's a doubling 
of the size of the embassy.
    There was no way to continue with the project in a way that 
allowed us to deploy our resources intelligently that would 
have allowed diplomatic security to certify the building and to 
co-locate all of the staff. We made the modifications that were 
necessary based on real changes that reflected American 
priorities in Port Moresby.
    Mr. Chaffetz. So I am going to try again. When did you get 
the official notification that you were getting Marines?
    Ms. Muniz. 2013.
    Mr. Chaffetz. Can you provide that to this body?
    Ms. Muniz. Yes.
    Mr. Chaffetz. And when will I get that?
    Ms. Muniz. The Department is part of that answer, so we 
will provide that as quickly as possible.
    Mr. Chaffetz. This is the challenge, chairman.
    If it's so dangerous and they need Marines, why aren't they 
there now?
    Ms. Muniz. The deployment of Marines is not something which 
is within OBO's purview, so I would refer that question back to 
DS. We could get back to you on that.
    Mr. Chaffetz. Again, you have got to get back to us on it.
    Mr. Chaffetz. Tell me, what happened, so that cost was 
going to be what? Originally under Standard Embassy Design it 
was going to be an expense of roughly $50 million was the 
projection, correct?
    Ms. Muniz. No, that's inaccurate. The $50 million is the 
construction contract only. The information that we provided to 
the committee and to the CBS reporter who reported on this is 
that the budget was $79 million. Let's call it $80 million.
    Mr. Chaffetz. And what's the budget now?
    Ms. Muniz. The budget is not yet reconfirmed. I think we're 
going to be close to $200 million.
    Mr. Chaffetz. Wait a second. Wait a second. It's not 
reconfirmed? What about this document here that I have that has 
initials on it? It says will remain $211 million for this 
option.
    Ms. Muniz. We believe that the cost will be under that. We 
are at 35 percent design.
    Mr. Chaffetz. Why? So, but that is what was signed off on.
    Ms. Muniz. That is not what was signed off on. That is not 
a final budget.
    Mr. Chaffetz. We will go through that in further detail. I 
pass my time, and I've got a host of other questions, chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Massachusetts, the other 
Mr. Tierney, Congressman Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    And again, I appreciate this and I know we're beating up on 
the State Department a little bit. So I do want to say to be 
fair that the State Department did turn around an immediate 
request from the chairman last weekend to support a delegation 
to inspect the embassy in London. That request came in on a 
Friday. The CODEL left on a Sunday and the meetings and 
briefings were lined up for Monday. Usually, CODELs, 
congressional delegations, are planned for weeks ahead, so the 
department should be thanked, I think, for the effort in 
helping the committee do that inspection.
    But I would caution you, and to your colleagues that have 
the authority to approve oversight committee CODELs for 
inspecting these various embassies, that we do need 
cooperation. We need cooperation right now in Iraq, and I know 
you have limited resources, but we have a responsibility here 
as the civilian part of this Government to get in and make sure 
that our folks are safe so we need cooperation there. We need 
cooperation in Yemen, we need cooperation in Afghanistan.
    And so we understand very well the trepidation that you 
have. But, this is a necessary part of our job, and we need 
full cooperation from the State Department on doing oversight. 
It's not just your job; it's also our job. So we just want to 
amplify our need to get in and out of these countries as 
expeditiously as possible, and we apologize for any diversion 
of resources to make that happen, but if we're going to sign 
off on a budget, we need to know what the situation is on the 
ground. We owe that to the taxpayers and also to the personnel 
that are in these facilities. So enough of that.
    I do want to talk a little bit, Ms. Muniz, about the 
drawback. I understand, you know, Mr. Chaffetz has an affinity 
for the Standard Design, but looking at it, it requires a 
pretty good parcel of land in order to set it down. This is the 
problem we had with Bashar al-Assad in Damascus. We're sort of 
downtown there. We're on street, very exposed. We were trying 
at that point to try to get the set design configuration for 
the new embassy there, new location.
    So, there was nothing downtown, so we end up further out. 
That exposes us even though we would have sort of Mr. 
Chaffetz's idea about set design with an apron of security 
there. We would have to be further out, out of town with a long 
commute for our people once they fly in. They will be very much 
exposed in getting to the embassy.
    This is the same problem we have had in Afghanistan. The 
most dangerous drive, you know, in recent years is when 
delegations fly in to Afghanistan and then you've got to drive 
up that road through Massoud Circle out to the embassy. They 
tried to tip my car over there in that rotary there a while 
back. A bunch of people very upset about somebody flushing a 
Quran down the toilet or something like that and, you know, the 
crowds just went wild. But, so putting our people out in a 
remote location is not the safest result for our embassy 
either.
    Tell me the answer, how to configure this. Now, you haven't 
abandoned that whole set design, right? Is that still on the 
table when the land is available?
    Ms. Muniz. Thank you for the question. Let me try to reply 
to it quickly. You make a great point. Part of the difficulty 
of the Standard Embassy Design is that it was a largely 
horizontal solution, so that where land is abundant, where we 
could still be on that much property in close proximity to our 
colleagues so that we're not required to travel back and forth, 
which has not only security but extensive cost implications, it 
made sense.
    But in a lot of the cities that we're required to build in 
now, not only is it not possible to find those 10 acres; if we 
were able to find it, it is extra ordinarily expensive. The 
example of London. We are building on less than 5 acres, 4.9 
acres. Property in London is very expensive. It makes a huge 
difference to be able to be on a smaller plot of land while 
still meeting all the security requirements including the legal 
requirement for 100-foot setback.
    But, so both cost and security, I think, play, but it also 
gives us a lot of flexibility in building in all of the 
locations that we need to build in where 10 acres may simply 
not be available.
    Mr. Lynch. Yes. So what you're saying is, does the Design 
Excellence model gives you that flexibility?
    Ms. Muniz. It absolutely gives us that flexibility.
    Mr. Lynch. Yes. All right. You know, when I try to think 
about the different locations and the different demands, the 
different environments that our embassies have to operate in, 
you know, it does give me pause to, you know, try to come up 
with a one-size-fits-all solution to that, which I think the 
set design more or less requires and I do support your ability 
to have modifications on that more toward the Design Excellence 
piece.
    But, you know, sometimes we do have what someone, a casual 
observer might observe as being, you know, far beyond what is 
necessary. So you have to caution people on the cost aspect of 
that, as well.
    I have exhausted my time and I'll yield back.
    Mr. Chaffetz [presiding]. Will the gentleman yield for a 
moment?
    Mr. Lynch. Sure I would. Sure I would.
    Mr. Chaffetz. I believe there are multiple examples of 
Standard Embassy Design on less than 10 acres.
    And one of the concerns I have is we have multiple GAO 
reports, we have an Inspector General report all confirming 
that these buildings in general, there's some exceptions, but 
we are coming in under budget and faster. And----
    Mr. Lynch. Well, you know, just to reclaim my time just for 
a minute, you know, the Baghdad embassy, though, dear Lord, 
that was $750 million. That was three quarters of a billion 
dollars.
    Mr. Chaffetz. And Baghdad is not a Standard Embassy Design.
    Mr. Lynch. It's modified. That's what it started out as. I 
mean, we have more than 10 acres there. We have got, you know, 
we've got the ideal situation. So all I'm saying is it's not 
just a question of one method versus the other. I think that, 
you know, whatever allows us some flexibility to consider the 
situation on the ground would probably provide the best--and I 
don't disagree with the points you're raising. I don't. I 
don't.
    I just think that it is so varied, the landscape under 
which the, you know, OBO and the State Department have to 
operate, they need that flexibility. That's all I'm saying.
    Thank you. I yield back.
    Mr. Chaffetz. Gentleman yield backs.
    We will now recognize the gentleman from Michigan, Mr. 
Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you the 
panel for being here.
    I just opened my Statement having had the privilege to 
travel to a number of embassies and consulates in regions of a 
great insecurity. My impression of our public servants that are 
in those positions was enhanced, increased almost to disbelief 
that some would take those positioning's. So we do want to make 
sure that they are cared for appropriately. We want to make 
sure the taxpayers are cared for appropriately, as well.
    And I would add my comments to those already requesting 
that you please convey to people who can get us documents that 
we have been requesting. It's so important when I've been 
listening to questioning already and find disagreements on 
numbers, on size figures and things like that, simply because 
we don't have the information. And we can't do the work. I 
don't expect any hard drive to break down, I hope not, before 
we get that information, but we really need that.
    In your testimony, Ms. Muniz and Mr. Jones, you talk about 
the development of Design Excellence. You talk how working with 
them was a very participatory process within the State 
Department. Can you describe how the Bureau of Diplomatic 
Security participated in development of this divine excellence? 
Divine excellence, we know that works, but Design Excellence.
    Ms. Muniz. The foundation of our excellence----
    Mr. Walberg. Your microphone, please.
    Ms. Muniz. I'm sorry.
    Mr. Chaffetz. You can move that microphone up closer. Thank 
you.
    Ms. Muniz. I'm sorry.
    The foundation of the excellence initiative, sort of our 
base going-in Statement was we are not changing the security 
standards, period. I have been in discussions with my 
colleagues in diplomatic security at the highest levels and at 
the working level and have made that assurance. I think that 
that is what is most important to them, and they have every 
reason to insist that that still be the case.
    Mr. Walberg. Did they clear----
    Ms. Muniz. Yes, they did.
    Mr. Walberg [continuing]. On Design Excellence?
    Ms. Muniz. They cleared our process yes, and they support 
the process, yes.
    Mr. Walberg. Who cleared?
    Ms. Muniz. I would have to get back to you on the 
clearances, but, again, how we put those buildings together is 
in the responsibilities of the Bureau of Overseas Buildings 
Operations. To the degree that we continue to build facilities 
that meet all of diplomatic security's concerns, that's what 
they need to sign off, in addition to understanding that we not 
add cost or add time to schedules in a way that would also 
jeopardize security, and we have committed to not doing that.
    Mr. Walberg. But they haven't signed off yet or they have 
signed off?
    Ms. Muniz. We have the support at the highest levels of 
diplomatic security in moving forward with this. A formal 
signoff within the department was not in the process, but they 
have signed off on our documents describing the process and how 
we're going to go about it.
    Mr. Walberg. Could you get those documents to us? Could I 
give you that assignment----
    Ms. Muniz. Yes.
    Mr. Walberg [continuing]. To get those documents to us.
    Ms. Muniz. I would also like, if I could, a number of 
members have mentioned the document request. I would like to 
convey, both personally and professionally, that I take 
seriously the role of this committee and of other congressional 
committees. It was a vast request. We are working as quickly as 
we can to collect that information together and will get 
information to the committee.
    Mr. Walberg. But, again, even the information that was in 
Al Jazeera didn't come to us.
    Ms. Muniz. I understand.
    Mr. Walberg. And, you know, that--I appreciate your emotion 
on that. I appreciate your promise, your intentions, but we 
really need the documents.
    Mr. Green, the panel on diplomatic security organization 
and management, a group which you chaired, says in its final 
report that, ``that it understands the desire to have embassies 
and consulates be more welcoming and to reflect the openness of 
American Society;'' and that, ``OBO is convinced that Design 
Excellence has widespread support within the department.'' 
However, the report also mentions that from a diplomatic 
security standpoint, there are questions raised by the changes 
under way in the embassy construction program.
    The question is, can you explain what those concerns are 
from a security perspective?
    Mr. Green. Sure. And we outline them in the report and I'd 
leave that to the committee to read at your leisure. But, 
there's another one that came up later and it goes to an 
earlier discussion here about the flexibility that Design 
Excellence provides in real eState and smaller places. That is 
one of the areas that DS really objected to in our discussions 
with them, both urban sites and smaller areas.
    Are we going to just have more waivers for the 100-foot 
setback? I know the difficulty in transiting if you're out in 
the boondocks somewhere. But there's got to be some 
accommodation. If security, in fact, is our most important 
issue, then, and let me quote from an OBO document here, it 
says, ``Whenever possible, sites will be selected in urban 
areas, allowing U.S. Embassies and consulates to contribute to 
the civic and urban fabric of those host cities. Special 
attention will be paid to the general ensemble of surrounding 
buildings, streets and public spaces, which the embassies and 
consulates will form a part.''
    What DS doesn't want is something on the street that a car 
bomb can drive up to and blow a hole in the wall. So I agree 
with the flexibility. There are cost issues as the director has 
mentioned. But some way, as we recommend it in our report, the 
Department has got to do an in-depth analysis of the security 
implications before you just start building downtown.
    Mr. Walberg. I appreciate that. My time has expired.
    Mr. Chaffetz. Yes, I was going to say the gentleman's time 
has expired. I thank the gentleman.
    Now recognize the gentlewoman from Illinois, Ms. Kelly for 
5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    The independent Benghazi Accountability Review Board made 
several recommendations to enhance embassy security, including 
the creation of a panel to evaluate the organization and 
management of the Bureau of Diplomatic Security. Mr. Green, you 
led this panel, which issued a report last year raising 
concerns with the Design Excellence program.
    This report Stated, ``While the panel agrees that special 
consideration for posts in places like London and Paris are 
warranted, security concerns for many other posts deserve 
serious consideration.'' The report also found, ``no evidence 
of a business case or cost benefit analysis supporting this 
initiative.'' Mr. Green, is that correct?
    Mr. Green. When we did the report, there was no evidence of 
any business case or cost benefit analysis. That's correct.
    Ms. Kelly. And why is such a study worthwhile?
    Mr. Green. Why is such the study that we did worthwhile?
    Ms. Kelly. Or why----
    Mr. Green. This was only one recommendation of 35. There 
were 34 other recommendations that dealt with DS management and 
operations and organization and training. So this was only one 
which came to light as we begin to talk to DS people that 
express concern about security.
    Ms. Kelly. OK. And has the Department responded to this 
finding and----
    Mr. Green. No, the Department has not responded to any of 
these recommendations. I've heard informally that they've 
accepted in part or in whole 30 of the 35, but I frankly was 
not expecting them to respond. This was a report that was asked 
for by the Undersecretary for management based on the ARB 
recommendation. We did the report. We turned it in and went 
home.
    Ms. Kelly. So you're saying there's no cost benefit study 
on the new initiative?
    Mr. Green. Not that I know of.
    Ms. Kelly. Director, I gather the department has not 
dismissed Mr. Green's panel in its finding as irrelevant. So 
what has the Department done in response to the report?
    Ms. Muniz. Typically, a cost benefit analysis is done 
before we go into a scenario where there's additional cost to 
make sure that that additional cost is warranted. As I've 
explained and assured the committee, there's no additional cost 
under the excellence initiative. We're setting budgets based on 
Standard Embassy Design budgets. If anything, we are hoping 
that costs will go down as we're able to look at longer-term 
operating cost and to make decisions that allow us to effect 
that.
    The recommendation was also that we ensure--that we look at 
what the impact was on security. Again, as I've explained to 
the committee and to the members, there's no impact on 
security. We will meet all of the security standards. Two of 
those standards, as you know, are in law, that's setback and 
colocation.
    So as Mr. Green describes the concern about being on urban 
plots, we will always meet that set back that is required in 
law regardless of being in a smaller plot. It is simply that 
the ability to have a building go up rather than be horizontal, 
to not have a warehouse in a place where we're able to get 
materials in realtime and to build one would be wasteful. We're 
able to take those into consideration and build on smaller 
pieces of property.
    Mr. Connolly. Would my friend yield just for a second?
    Ms. Kelly. Yes.
    Mr. Connolly. Would you please remind us what the setback 
requirement is?
    Ms. Muniz. The setback requirement is 100 feet.
    Ms. Kelly. Mr. Green, any other comment about the 
director's response?
    Mr. Green. No.
    Ms. Kelly. OK. Well, I'd like to thank you and your 
committee for the work on the panel.
    Mr. Chaffetz. Would the gentlewoman yield for a moment?
    Ms. Kelly. Yes.
    Mr. Chaffetz. On the one hand, Ms. Muniz, you say you're 
confident that it is going to come under budget. At that same 
time, we don't have a cost benefit analysis. That hasn't been 
done, correct?
    Ms. Muniz. I've not said under budget; I've said on budget.
    Mr. Chaffetz. You were hoping that it would come under 
budget, but----
    Ms. Muniz. No. The Department sets budgets, OBO sets 
budgets based on number of desks and based on the program for a 
facility. We use historical data, historical data accumulated 
from the construction of the Standard Embassy Design to set our 
budgets. We know that people work----
    Mr. Chaffetz. But you have no completed Design Excellence 
building. In fact, you used as an example N'Djamena, which is 
in Chad, as a success story, correct? That was one of your 
examples. If we went to Chad right now and looked at N'Djamena 
what would we see?
    Ms. Muniz. It's one of the early projects that I described.
    Mr. Chaffetz. What would we see if we went to Chad? You 
used it as an example of success. What would we see if we went 
to N'Djamena?
    Ms. Muniz. I am not certain what we would see. I'm 
obviously not----
    Mr. Chaffetz. Do we even have a hole in the ground yet?
    Ms. Muniz. I don't have the status of the N'Djamena project 
right in front of me.
    Mr. Chaffetz. You came up with the example, and I'm telling 
you that it's not even scheduled to be completed until October 
2016. We're not even sure if there's a hole in the ground yet 
and you're using that as a success story; am I wrong?
    Ms. Muniz. I described the projects that were awarded using 
the excellence principles. To say that those projects are 
awarded is not the same thing as to say that those projects are 
completed.
    Mr. Chaffetz. Do you have any completed studies or any 
completed projects under the standard, or under the Design 
Excellence program?
    Ms. Muniz. As I explained, we do not. The first project 
that we awarded as a variation on the excellence initiative was 
in 2011. The first real projects that we were awarded--we will 
award, as I Stated, are in 2014. That is this fiscal year.
    Mr. Chaffetz. So the success that you have is just the 
awards. It's not actually achieving.
    Time is expired. I appreciate the gentlewoman from Illinois 
yielding me time.
    We will now recognize the gentleman from Michigan, Mr. 
Bentivolio for 5 minutes.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Thank you for being here today to testify. The chairman 
earlier alluded to the beauty is in the eye of the beholder, 
and I can tell you from experience, the sandbag bunker looks 
really good to a soldier under a mortor attack, but I am sure 
that we don't want to build the embassies looking like a 
sandbag bunker. But I know we do have a need for curb appeal. 
But after going through these reports and talking to some other 
people outside of this hearing, I just have a real few simple 
questions.
    I want to know, do we have a final number for the Baghdad 
embassy cost?
    Ms. Muniz. I believe we do, but I don't have it at the top 
of my head.
    Mr. Bentivolio. I heard that the contractor made over $500 
million profit. Did you hear the same thing? $500 million in 
profit?
    Ms. Muniz. Again, this was a project that was awarded 
years----
    Mr. Bentivolio. One of the most expensive embassies ever 
built.
    Ms. Muniz [continuing]. Years ahead of my time, under the 
Bush Administration.
    Mr. Bentivolio. Well, you have access to those numbers?
    Ms. Muniz. Yes, and we can certainly provide those to the 
committee.
    Mr. Bentivolio. Great.
    Mr. Bentivolio. And what did we say the London embassy is 
going to cost?
    Ms. Muniz. The total project cost for London is near a 
billion dollars. If you exclude----
    Mr. Bentivolio. A billion dollars. How many people are 
going to work in there?
    Ms. Muniz. If you exclude the property price, it is under 
$800 million. The cost to do a major rehabilitation and 
security upgrades of the existing chancery, which would have 
never met security standards including two in law, we have 
spent $730 million.
    Mr. Bentivolio. I understand the need. For $1 billion, I 
would probably--well, we can't say that. We do need an embassy 
in London. But $1 billion seems like we should be looking at 
some alternatives. I know in places like Iraq we use Hesco 
barriers, concrete, prefabricated concrete barriers that are 
placed relatively quickly in times of danger.
    I have some questions in regards to costs, let's see, rap 
heavy reenforcement, standoff distance of 100 feet, I 
understand, steel structures with curtain walls, all kinds of 
things that, well, deal with security but you're putting more 
emphasis, it seems, on curb appeal.
    And I just, a few more questions. Can you give me a few 
reinforced concrete examples of how moving to this new design 
strategy enhances security?
    Ms. Muniz. So I think London is a great example, and I 
would like to speak in that context.
    Mr. Bentivolio. A billion dollars worth. Yes, you have my--
    Ms. Muniz. We sold the properties that were existing in 
London, this is a project that did not have to be done, for net 
zero for the taxpayer. We are able to 100 percent replace those 
facilities for $50 million more than it would have cost to do 
massive upgrades to the existing facilities that would have 
still left it vulnerable due to setback. No colocation and not 
meeting other security examples. We are able to build the brand 
new embassy.
    Mr. Bentivolio. Would it hurt to be outside of London, just 
outside of London where the cost is less expensive? One billion 
dollars.
    Ms. Muniz. I would argue, in London it would hurt to be 
outside of London.
    Mr. Bentivolio. Did you have a uniform layout for all 
embassy facilities which could aid security personnel in 
training during emergencies? I mean, you have to go from one 
embassy to the next. Everything is different. The design plan 
is different. Everything seems to be tailored at expensive 
costs.
    Ms. Muniz. Our diplomatic security staff are incredibly 
skilled, and right now they deal with a wide variety of context 
and of buildings.
    I would also like to say that if we stayed with the 
Standard Embassy Design which basically had two separate bars 
of construction, it is less efficient, it is harder to get from 
one bar to the other than a cube, London is a good example of 
that, and to build more efficiently also saves dramatically in 
terms of cost.
    Mr. Bentivolio. A billion dollars for an embassy, and that 
is efficient. I just have a real problem with that because 
having experienced in Iraq and Vietnam, I know we build the 
same bunkers, pretty much the same standard design, a few 
improvements here and there by they suffice. I know we can do 
the same thing with a more modern building uses standard format 
design either going up or out.
    You could probably have three standard designs that would 
fit just about anywhere. Why do I know that? Because I have 
experience in that business. You know, we build our military 
vehicles pretty much the same way. They're compartmentalized. 
We can drive an Abrams tank and change the engine out in a 
matter of hours.
    Mr. Chairman, I have a real problem with $1 billion designs 
and costs when contractors are making $500 million profit on 
some of our most expensive embassies.
    Thank you very much. I yield back.
    Mr. Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Vermont, Mr. Welch for 5 
minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    Thank you. You've got a pretty hard job. It really is. But 
two things: One, Mr. Lynch indicated a gratitude for your 
cooperation in turning around a CODEL; second, I know the 
chairman of the subcommittee sent some requests for 
information. It is helpful to the committee. It is a burden on 
you, but it really makes for a better life all around if there 
can be as much cooperation as possible in a timely way, but I 
do want to acknowledge the hard work that you have to do.
    One question I have is, how much--I mean, the costs are 
high. How much of the complications that you face day-to-day in 
making decisions about an embassy wherever it may be, have to 
do with the enormous security requirements that now seem to be 
part of everything? And I'll ask you, Ms. Muniz.
    Ms. Muniz. I think the security requirements clearly 
significantly add to the expense, but I don't know that anybody 
in the State Department on this committee would call into 
question the need for those security measures, both 
operationally during building and the measures physically that 
are put in place. But it does, when you look at the average 
cost of an embassy as compared to an office building on the 
market, those costs are very different but they are really 
driven by what are some of the safest facilities in the world.
    Mr. Welch. Well, Mr. Green, you know, one of the things 
that I find a little bit troubling is when I visit embassies, 
they're remote in many cases and difficult working 
circumstances, it seems, for some of the embassy personnel as a 
result of the security requirements and is there some 
indication that there are some cases where too much security 
actually interferes with the ability of the embassy personnel 
to do their job effectively?
    Mr. Green. I would say generally no, but if you talk about 
access, for example, for employees, particularly non-U.S. 
employees who are held up going through various security check 
points, possibly there is. But I think generally DS is not 
going to spend money to over-secure a place. If anything, we 
probably have some that are under secured.
    Mr. Welch. OK. Well, that's helpful.
    And Mr. Chairman, I am prepared to yield the balance of my 
time.
    Mr. Connolly. Would my colleague yield his time, Mr. Welch?
    Mr. Welch. Yes. I want to yield my time to Mr. Chaffetz.
    Mr. Connolly. Oh, I'm sorry. I'm sorry.
    Mr. Chaffetz. Go ahead. If you wanted to, go ahead.
    Mr. Welch. All right. I yield my time to Mr. Connolly. 
Thank you.
    Mr. Connolly. I thank my friend. I'm sorry for the 
misunderstanding.
    You know, this is not a theoretical discussion. Mr. Green, 
when you were in the Reagan Administration I was in the Senate, 
and I went to Beirut for the embassy bombing, no setback, right 
on the main thoroughfare, and I had a friend killed, Bill 
McIntyre in that bombing embassy, and of course, our embassy 
was bombed again in Beirut, to say nothing of the Marine 
barracks at the Beirut airport.
    Kenya, Tanzania, some of the loudest critics of, you know, 
the cost of security and securing our embassies, of course, are 
the first to talk about the lack of security in Benghazi and it 
is a balance. But security, we have learned all too painfully, 
is a very important component in making decisions about 
fortifying setbacks and the like. Is that not true, Mr. Green?
    Mr. Green. It is the most important decision.
    Mr. Connolly. Now, let me ask, how do we balance, though, 
the need for accessibility, the need for visibility, the need 
for convenience in another country? I mean, we cannot forget, 
it isn't just about us and our security and convenience. It's 
also about the population, our embassy consulate is serving. 
Lots of people want to get visas and do business and so forth. 
Help us understand a little bit from your point of view with 
your commission, how do we strike the right balance?
    Mr. Green. That's probably the toughest question that 
anyone here has asked today. I don't know that there's a magic 
bullet to do that, but you've got to manage risk and people 
have different opinions of how you do that, whether security 
takes precedence or access takes precedence.
    I remember when I was still at the State Department there 
was a big battle between those who, in the old USIA who wanted 
more access for the local populous to go to the libraries and 
then on the flip side of that were the security people that 
said we can't afford to have a library hanging out there in 
some commercial building. So we haven't solved it. I think 
it's, you know, you have to manage risk based on the situation, 
based on the threat and if you need more security or less 
security then that's what you do. I mean, we can adjust.
    Mr. Connolly. And I'll finally just add, based on what you 
just said, you can't just have a cookie-cutter approach because 
the situation is going to be different everywhere.
    Mr. Green. That's right.
    Mr. Connolly. I thank you.
    And Mr. Welch, thank you so much for your courtesy, and 
thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. Gentleman's time is expired.
    We will now recognize the gentleman from Florida, Mr. Mica 
for 5 minutes.
    Mr. Mica. Thank you, Mr. Chaffetz. And I think this is a 
very important hearing. Sometimes it doesn't get the attention 
others do, but it is an important meat-and-potatoes hearing 
that talks about our embassy security. A lot of that was 
highlighted by the events at Benghazi, and also our 
vulnerability with our various posts around the world.
    Now, it's kind of interesting, my brother was a Member of 
Congress who chaired the subcommittee, I think it was 
international operations, that did the Inman buildings when 
they were looking at secure facilities.
    Mr. Connolly. Mr. Mica, if I may, that was your Democratic 
brother.
    Mr. Mica. That was, yes.
    Mr. Connolly. Yes. Thank you.
    Mr. Mica. And if he got it right, we wouldn't be there 
today with this hearing. But touche, Mr. Connolly.
    In any event, you can do just about everything Mr. Green 
said. It's almost impossible to protect every compound, our 
employees are at risk around the world. They can't all be 
confined in the compound. But some things can be done. And we 
have two lists, I understand. One is prepared by OBO and 
another one is by the security folks, diplomatic security 
folks.
    On the risk level, I just saw a copy of one of those which 
you all have not provided to us, but we've gotten a copy of it, 
and for obvious reasons, we don't publicize that. We don't want 
our enemies to know where our emphasis is. But there are just 
some commonsense things that need to be done and some posts are 
more at risk than others, right, Ms. Muniz?
    Ms. Muniz. Yes, that's absolutely right.
    Mr. Mica. OK. Mr. Jones, you'd agree, and Mr. Green.
    One of the problems we have is there's a security list I 
have seen and it differs from the OBO list. Can you tell me 
about the differences, Ms. Muniz?
    Ms. Muniz. Yes, I can, and I appreciate the opportunity. DS 
assesses every facility worldwide on an annual basis for its 
risk. That is called the vulnerability list.
    Mr. Mica. Right.
    Ms. Muniz. That list is very, very extensive, because it 
includes every building in a compound which may have, say, a 
half dozen facilities spread around the town. We take that 
information----
    Mr. Mica. But it does rank them?
    Ms. Muniz. It does rank them. It absolutely ranks them.
    Mr. Mica. And your list is different from their list. Is 
that correct?
    Ms. Muniz. We basically translate their list into the 
highest risk post. We pull up, in other words, if they're 
assessing 12 facilities, we pull up the highest at risk and put 
it on our vulnerability list or our capital security cost-
sharing program.
    Mr. Mica. But they don't match, I'm told.
    Ms. Muniz. They can't match exactly because for their ten 
entries, we would have one.
    Mr. Mica. Well, again, this started out as looking at 
Design Excellence and choosing design as opposed to security. 
You have diplomatic security that is directed to make certain 
that our folks are protected and then you have your 
organization, overseas building, and you're making your 
determinations. But they don't mesh and that may leave some of 
our facilities at risk.
    For example, Benghazi, I was told, was high on a list but 
actually didn't get the attention either from reenforcement 
after a number of requests of security personnel and other 
safeguards and that some of the attention that should have been 
focused there and that would be the Secretary of State's 
ultimate responsibility. Is that correct? Would the Secretary 
of State make a determination there, or is this----
    Ms. Muniz. We, the department, OBO and DS basically decide 
on that capital security construction schedule. So the list 
that you see----
    Mr. Mica. Does the Secretary review the list?
    Ms. Muniz. Not to my knowledge.
    Mr. Mica. Not to your knowledge. Now that's something we 
might need to change in the law. But, again, I would think that 
the Secretary of State charged with a safety and security of 
our embassies would at least look at the list, and you don't 
think like the former Secretary when Benghazi occurred even 
looked at a list or was given the list?
    Ms. Muniz. I can't speak to that, but I can assure you that 
working with diplomatic security which we do every year on that 
list, that diplomatic security signs off on the order of that 
list and that it is based on the ranking----
    Mr. Mica. Well, someone failed in Benghazi, and I'm told 
that it was high on the list, that the proper attention was not 
paid to making certain it had the protections. Because, I mean, 
even a high schooler could look at the list on Libya, Benghazi 
and pick that as a top priority. Wouldn't you say that would be 
a top priority if you were looking at a list a year ago or 
whenever?
    Ms. Muniz. The Capital Security Construction Program 
provides us funding to build embassies and consulates. Benghazi 
was neither an embassy nor a consulate and was not on the list.
    Mr. Mica. But it had American personnel and it also posed a 
risk. Diplomatic security was also responsible for the security 
of the personnel there, and they contracted also for services; 
is that correct?
    Ms. Muniz. I could make a general Statement about Benghazi 
and about OBO's role, but I think beyond that, I didn't come 
today prepared nor was OBO's role in Benghazi extensive.
    Mr. Mica. Well, I just want to know the general procedure. 
Mr. Issa and I visited, post-Benghazi, some of the diplomatic 
posts. We saw some simple comments and things that needed to be 
done, improvements in video capability, improvements in a whole 
host of areas. Are you aware that those improvements that have 
been identified by the different groups and Congress have been 
made so that our personnel are not at risk? Final question.
    Ms. Muniz. You're talking about improvements in Benghazi. 
We no longer----
    Mr. Mica. Security improvements in our diplomatic posts. 
There have been a host of groups investigating, reporting and 
they've said that certain things need to be done. I cited one 
as video capability. There are many others, but maybe we don't 
want to discuss them in open form. But can you tell the 
committee, from your position, have those improvements been 
made and addressed?
    Ms. Muniz. So let me respond on two fronts. As the 
committee knows----
    Mr. Connolly. Excuse me, can you please speak into your 
microphone. Put it up to you. Thank you.
    Ms. Muniz. Sorry. As the committee knows, the Secretary in 
the wake of Benghazi appointed an accountability review board. 
That review board made 29 recommendations. The Department 
accepted all of those recommendations and has been aggressively 
implementing those recommendations. They've also reported to 
Congress on the implementation. OBO is involved in----
    Mr. Chaffetz. Can I interrupt you right there? Because part 
of that accountability review process was the development of 
this report by Mr. Green and you had Under Secretary Kennedy go 
on CBS news and say they don't accept it. So how do you 
represent that the State Department has accepted all those 
recommendations when the work of Mr. Green was not accepted?
    Mr. Mica. And also, Mr. Chairman, if they could for the 
record, and I think all the members would want this, can you 
also give us for the record what has been implemented. If some 
of those recommendations have to remain not public, that's 
fine, but give them to the committee. So can you answer the two 
questions?
    Ms. Muniz. I can certainly take that back to the Department 
and we could reply to that request.
    Mr. Mica. You didn't answer Mr. Chaffetz.
    Ms. Muniz. If he could repeat the question.
    Mr. Chaffetz. We're going to recognize Mr. Connolly now and 
then we'll come back to this.
    Gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair.
    Don't repeat the question, Ms. Muniz. The assertion is 
being made that Patrick Kennedy contradicted the Secretary of 
State, and I don't believe that's true. I believe that's 
inaccurate. And for the record, I would ask you to go back and 
have Mr. Kennedy clarify, but I'm quite confident knowing Mr. 
Kennedy, he was not contradicting the secretary of State who 
said she had accepted all recommendations, as you just said. 
And if there's any daylight between those two points of view, 
by all means, come back and clarify. But I didn't hear Mr. 
Kennedy say any such thing.
    Ms. Muniz. I think that assumption is right.
    Mr. Connolly. I'm sorry. Thank you.
    I also find it interesting that in hindsight we have 
perfect understanding of the security needs in Benghazi and you 
should have understood that Benghazi of all of the posts in the 
world was No. 1. Shame on you for not understanding that. How 
many posts do we have in the State Department around the world, 
Ms. Muniz?
    Ms. Muniz. We have roughly 270.
    Mr. Connolly. I'm sorry?
    Ms. Muniz. We have roughly 270.
    Mr. Connolly. You really don't like that microphone, do 
you? You need to put--thank you.
    Ms. Muniz. We have roughly 270.
    Mr. Connolly. Perfect. 270, is that right?
    Ms. Muniz. Yes.
    Mr. Connolly. So we have lots of security challenges and 
Benghazi, as you point out, was neither a consulate nor an 
embassy. That doesn't mean it's unimportant. We want to protect 
all American personnel. We don't want anyone at risk, but 
unfortunately, we live in a dangerous, imperfect world. And 
here is the same crowd complaining about you spending too much 
money which, well, you know, in any security situation you've 
got to do some triage in terms of where you put your money and 
how you prioritize it. Is that not correct?
    Ms. Muniz. I think that's absolutely right.
    Mr. Connolly. Right. And obviously, you wish all 270 posts, 
including Benghazi, were perfectly secure with the perfect 
setbacks and in the right location that met all of the demands, 
the functionality of the State Department, the needs of the 
host country, accessibility for everybody, but security that is 
impregnable. Is that not correct?
    Ms. Muniz. I think that's accurate.
    Mr. Connolly. And that would be called a perfect world. 
Would that be fair, Ms. Muniz?
    Ms. Muniz. Yes, that would be.
    Mr. Connolly. Yes. So I'm not quite sure how much that 
perfect world would cost, but absent a perfect world, the 
question is, can we do better? Can we make better decisions, 
better informed decisions? As Mr. Green and I were talking 
about earlier, that clearly understand that in the world we 
live in right now security in some ways it is going to dominate 
some decisions or at least take preponderance of the weight as 
we consider all the factors.
    But it can never be the only consideration because what's 
the point of having a State Department facility, an embassy, a 
consulate if it can't function, you know? And that's the 
dilemma, and that's what Mr. Green and I were talking about a 
little bit earlier, that balance. And I assume that's something 
that bedevils you, too, Ms. Muniz, and your colleague, Mr. 
Jones.
    Ms. Muniz. I would say that I'm naturally optimistic, and I 
really do believe that with great architects, great engineers, 
great builders that we can crack that nut, that we can build 
buildings that are secure, we can make them as efficient as 
possible.
    But I really do think that we could do everything that's 
humanly possible and have those buildings do the maximum that 
they should do. I think the standard embassy design taught us a 
lot. I think we were able to take a lot of those lessons and 
help inform what we do, and I think that we're going to 
continue to learn and make these facilities better and better, 
and faster, and economical and efficient, but I really believe 
that we're going to get there, and I'm dedicated to getting us 
there.
    Mr. Connolly. I want to pick up on Mr. Bentivolio's point, 
however. While I do--I am bothered by sort of a double standard 
some seem to have about this whole issue of security; you 
should have known, but don't spend so much money, and a cookie-
cutter approach will do fine. As Mr. Green said, it really 
won't do fine. We have to take cognizance of the variations 
among the 270 posts overseas, and the different cultures, and 
threat assessments and so forth.
    But a billion dollars is a lot of money. Now, first of all, 
did--it was not clear. It was hard to follow your math. Were 
you telling us that all but $50 million of that $1 billion has 
been recovered by the sale of other property we own in London 
and vicinity?
    Ms. Muniz. So let me go over it very briefly.
    Mr. Connolly. There's that microphone again, Ms. Muniz.
    Ms. Muniz. I'm sorry.
    Mr. Connolly. That's all right.
    Ms. Muniz. Let me go over it very briefly.
    Mr. Connolly. Yes. Very briefly. I've got 19 seconds.
    Ms. Muniz. OK. We sold all of our current properties in 
London. The proceeds of the sale from those properties are 
paying for the projects.
    Mr. Connolly. OK.
    Ms. Muniz. There will likely be a small amount of money 
left in reserve at the end of the London projects.
    The comparison I was making is that the Bureau, before my 
time there and I believe at the time that Mr. Green was at the 
Department, assessed whether it would be better to fix the 
current chancery, which would have cost $730 million, or to 
build a new one. And when you compare the cost, excluding the 
site in London, it's under $800 million. So for a difference of 
about $50 million, we're able to build a facility that meets 
setback, that collocates staff, that meets all of our security 
requirements, and that doesn't require any new appropriated 
funds.
    Mr. Connolly. Thank you for that clarification.
    And, Mr. Chairman, thank you.
    Mr. Chaffetz. Thank the gentleman.
    We'll now recognize the gentleman from North Carolina Mr. 
Meadows for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of you for your testimony.
    One, before Mr. Connolly leaves, because he may need to 
comment, the gentleman from Virginia, because he sits on the 
Foreign Affairs Committee with me. And I guess I'm troubled 
that this is the first time that we're really hearing about 
Design Excellence in terms of the re-auth and the way that it's 
gone. And I'm passionate about foreign affairs, and I attend 
the majority of those hearings, and so I think the gentleman 
from Virginia would say that this is the first time he's heard 
it, but I'd yield for a couple of seconds to----
    Mr. Connolly. Can I just say to my friend from North 
Carolina, I'm sympathetic to the challenge that we face, and 
it's real, and as I said, I think, maybe before you arrived, 
for me this is not some political ball----
    Mr. Meadows. Right.
    Mr. Connolly. I had a friend killed in one of our embassies 
in a terrorist attack because there was no setback and because 
we weren't diligent, frankly, about the threat assessment.
    Mr. Meadows. Is this the first time you've heard about 
Design Excellence?
    Mr. Connolly. It is. And I want to tell you, this whole 
issue of building security, when I worked in the Senate 30 
years ago, we were talking about this. And it seems to bedevil 
the State Department in part because it's not their expertise.
    Mr. Meadows. Well, and that's where I want to followup.
    Mr. Connolly. Yes.
    Mr. Meadows. And I thank the gentleman from Virginia.
    It is very troubling to me that when I sit on an 
authorizing committee and now on an oversight committee, and 
probably even more difficult for me because I've built million-
dollar buildings, I've worked with architects, I know design 
bid/build very well, that how do we have a set of standards--
for example, let's talk about security, because all of us in a 
bipartisan manner here agree on security. What diplomatic 
security standards do we have for this Design Excellence 
component? Who's weighed in on that, or are you just counting 
on architects and engineers?
    Ms. Muniz. So all of the standards are established by 
Diplomatic Security and in law, setback and collocation and 
law.
    Mr. Meadows. I'm not talking about setbacks; I'm talking 
about the actual design part of it. The setbacks is pretty 
easy. We talked about that today. So you have a set of 
standards by Diplomatic Security that are published that I can 
find today?
    Ms. Muniz. I know----
    Mr. Meadows. Because I couldn't find them.
    Ms. Muniz. I know that some of those standards are 
classified, so----
    Mr. Meadows. I've got--I've got security clearance. I'd be 
glad to go look at it. So you're saying----
    Ms. Muniz. We can provide----
    Mr. Meadows [continuing]. That if I go in a classified 
setting, I can find that today, because I--make sure. You're 
under oath. You know, you've got some staff behind you. Are you 
sure about that?
    Ms. Muniz. We--let me put it this way: We meet all of the 
security standards established by Diplomatic Security for every 
new consulate and embassy that we build.
    Mr. Meadows. How do you do that when----
    Ms. Muniz. As you might also know, Diplomatic Security 
certifies that those buildings meet not only their requirements 
and their standards established by the OSPB, but also those 
standards set in law. All of the standards that are established 
by DS and by OBO to the degree that we're responsible for life 
safety standards, fire, all of those are met. Nothing will be 
changed with respect to those security standards going from the 
standard embassy design to----
    Mr. Meadows. So what does change?
    Ms. Muniz [continuing]. The Excellence Initiative.
    Mr. Meadows. So what does change?
    Ms. Muniz. I think the way I would explain it is that we 
took what was a fixed module, a fixed solution to building, we 
deconstructed it in a way that it became more a kit of parts 
that could be----
    Mr. Meadows. Why?
    Ms. Muniz [continuing]. Assembled in different ways.
    Mr. Meadows. To make it look better?
    Ms. Muniz. No. To make it more efficient, to make it cost 
less, to build less in environments where we don't need a 
warehouse, where we don't need 10 acres----
    Mr. Meadows. OK. But----
    Ms. Muniz [continuing]. And to make sure that----
    Mr. Meadows. Let me just say that we don't----
    Ms. Muniz [continuing]. That these buildings are crafted to 
maintain low operating costs.
    Mr. Meadows. I understand that that was the goal. Where do 
we have any example where that's actually really happened to 
date?
    Ms. Muniz. I----
    Mr. Meadows. To date.
    Ms. Muniz. I think----
    Mr. Meadows. Today.
    Ms. Muniz [continuing]. That's a fair question, but it's a 
relatively recent initiative. So while there are early 
examples----
    Mr. Meadows. So is the answer yes or no? Do we have any 
example? One. One example.
    Ms. Muniz. The examples that we consider early examples are 
in the pipeline and----
    Mr. Meadows. So do we have one completed example? Yes or 
no.
    Ms. Muniz. No. No, we don't.
    Mr. Meadows. So how can you say definitively that it's 
costing the taxpayers less, that it's secure, that it meets the 
standards, that it does all of that? How can you say that? I 
mean----
    Ms. Muniz. We know----
    Mr. Meadows [continuing]. Are you projecting it?
    Ms. Muniz. No. We know that the designs are certified by 
Diplomatic Security. We know what the costs are because we set 
the budget. And we know what the schedules are, because that--
those are the schedules that we self-set to build those 
facilities overseas.
    Mr. Meadows. So why--why wouldn't we have heard about this 
in Foreign Affairs?
    Ms. Muniz. So I'd like to go back and answer that question. 
We have briefed this program and there have been numerous 
settings on the Hill where this program has been discussed 
since 2011.
    Mr. Meadows. Yes. So when was the major initiative briefed 
to----
    Ms. Muniz. The first time it was briefed to the Hill was in 
March 2011.
    Mr. Meadows. No, to Foreign Affairs. I sit on that 
committee, too. So--and I'm not aware that you ever briefed us. 
When did you brief us, the major initiative? Ever?
    Ms. Muniz. We offered briefings. I'd have to go back to my 
staff to see----
    Mr. Meadows. Well, they're behind you----
    Ms. Muniz [continuing]. Which committee and which staff.
    Mr. Meadows [continuing]. So just turn around and ask them. 
When did you brief us? I've got my calendar. I'll be glad to 
check. And I'm talking about the major initiative here. I'm not 
talking about some little, teeny component. When was that----
    Ms. Muniz. No. I understand. It's my understanding that we 
offered briefings. When we went up and briefed in March 2011, 
we offered all committees the opportunity to be briefed in this 
program.
    Mr. Meadows. And so the House Foreign----
    Ms. Muniz. Our authorizers----
    Mr. Meadows [continuing]. Affairs turned you down?
    Ms. Muniz. My understanding is that, yes, it is. Yes, they 
did.
    I'd like to go back and put together the schedule, but we 
offered briefings to our authorizers----
    Mr. Meadows. OK. Well----
    Ms. Muniz [continuing]. Our operators and the----
    Mr. Meadows [continuing]. Let me just tell you that I----
    Ms. Muniz [continuing]. In the Senate.
    Mr. Meadows [continuing]. I sit on that committee.
    Ms. Muniz. And in----
    Mr. Meadows. It hasn't been authorized. You've had new 
budget requirements. I would suggest as part of the normal 
order that you would go before that committee as well; don't 
you think?
    Ms. Muniz. I would be more than happy to brief any 
committee that's interested in the program and to answer any of 
the questions. I know that we have invited staff to----
    Mr. Meadows. I----
    Ms. Muniz [continuing]. Have provided materials, but I 
would be more than happy to go to any committee and have a 
conversation about this program.
    Mr. Meadows. Before you put out any more bids and award any 
more contracts. Would you be willing to commit to that?
    Ms. Muniz. No.
    Mr. Meadows. All right. I yield back.
    Mr. Chaffetz. I now recognize the gentlewoman from Illinois 
Ms. Duckworth for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    So I understand the tension between making sure our 
embassies are accessible to the host-nation citizens who want 
to do business with the United States, as well as to allow our 
embassy personnel to do the jobs that they need to do, but also 
the need for security. And we could focus on the past all we 
want and who voted for what, who voted for funding, who didn't 
vote for funding, who--you know, folks who are now saying, 
well, there's not enough security, but these are the same folks 
who voted to cut funding to the State Department.
    I wasn't here then. I'm here now, and my focus is moving 
forward. And in looking at the Design Excellence program, as I 
have so far, I do applaud its modularity concept, that you have 
these components that help with security, and that you can put 
them together in different ways as appropriate to the Nation, 
the security risk, the available land, all of those things, as 
opposed to a single monolithic embassy design that is the 
single embassy design, because there's a security issue with 
that as well. We don't want one single embassy design where 
every single embassy we've ever built is exactly the same, 
because if I were a terrorist, I'd just have to figure out one, 
and then I know the weaknesses for all of our embassies.
    So I do understand that, but I do have a concern with the 
Design Excellence program, and that is the involvement of 
security experts in development of the Design Excellence 
program. I know there were some who were on the commission to 
develop it, but, Ms. Muniz and then Mr. Green, if you could 
each address this issue of the actual input of security experts 
into the program, into setting the standards that are in the 
program, and whether that is--there's an ongoing effort to keep 
the security experts involved beyond what the State Department 
comes up with on its own, because one of the criticisms that 
has happened has been that the State Department has 
underestimated the security needs and the security threats. And 
I want to make sure as we move forward and we build these 
embassies that security considerations are part of that ongoing 
process of assessment.
    So, Ms. Muniz, if you could sort of address that, starting 
from who is on the initial commission and whether that 
involvement in security continues. And, Mr. Green, if you could 
give us your assessment as well, as a security expert yourself.
    Mr. Green. I'm not really a security expert.
    Ms. Duckworth. Well, you led the committee that was asked 
by the ARB, and I think that you have some very valid comments 
that I would like to hear about in terms of security in the 
Design Excellence program. But I'd like Ms. Muniz to start, if 
you don't mind.
    Ms. Muniz. As I mentioned earlier, the founding commitment 
with this program, as with any other programs that would evolve 
over time relating to embassy and consulate construction, is 
that we meet all of the security standards established by DS. 
They increase some; they change them over time. Whatever they 
throw at us, we are going to implement, because that's our 
responsibility. So I want to make that point very clear.
    Our goal with this process is also to improve our 
coordination with Diplomatic Security, so to have them more 
involved with us and to have them more involved earlier to make 
sure that they see everything that we're doing throughout the 
development of the project. So I would argue that their 
involvement is going to increase, and that the key commitment 
that I know is important to them is that we continue to meet 
all of the security standards. And I have assured--I have 
assured the Department, I assure this committee that we will 
continue do that.
    Ms. Duckworth. OK. Mr. Green.
    Mr. Green. I don't know what the interaction today is 
between DS and OBO as they develop new plans for embassies and 
consulates. What I do know is--and recognize, this report what 
was done now more than a year ago. Maybe they're all joining 
hands and singing Kumbaya now. But when we interviewed people 
who were concerned with security, not just DS, but people from 
other parts of the government also, they were not happy. The 
people we talked to were not happy in their role--with their 
role in the selection process and felt very strongly that the 
pendulum had shifted from security to design.
    I mentioned--and there are several examples of our 
observations, as I said before, didn't come from the six of us. 
These were based on the interviews that we did with more than 
100 people. Not all of them, obviously, opined on OBO and 
security, but many did. And so their--those observations are in 
there. It's not my opinion. It's what we got from people who 
work on a daily basis, or hopefully work on a daily basis, with 
OBO.
    Ms. Duckworth. Thank you. I'm out of time, Mr. Chairman.
    Mr. Chaffetz. If the gentlewoman will yield so she can 
reclaim some time and respond to this.
    Ms. Duckworth. Yes, I'll yield.
    Mr. Chaffetz. Mr. Green spearheads this effort, puts 
together this report, which was an offshoot and started because 
of the Accountability Review Board. Ms. Muniz, has the State 
Department accepted this? Has this been approved? Is there 
anything under your mind that has been--or did they disagree 
with it?
    Ms. Muniz. As Mr. Green pointed out, the DS Management 
Review Board really looked at DS' organization. So I don't know 
the status of the response or the implementation of those 
recommendations. I could take that back to my colleagues----
    Mr. Chaffetz. And that's one of the concerns.
    Ms. Muniz. With respect to--let me finish. With respect to 
the questions relating to OBO, there was one recommendation 
that we look at the cost implications--or the security 
implications of this program, and we have affirmed time and 
again that there will be no security implications to this 
program. We are dedicated to meeting all of the security 
requirements that DS establishes, that are established in law, 
and in working with DS to innovate better and better products 
every year that better meet those security standards.
    Mr. Chaffetz. So if it takes longer to build something, do 
you consider that a security implication?
    Ms. Muniz. As I explained to the committee, from the time 
of award, which is how OBO receives its funding annually, the 
time to build the facility, because we will be doing 
construction only, will be the same or shorter, which means 
that we will have people in safer facilities faster than using 
the design/build methodology, in particular when we have 
advance time to plan.
    Mr. Chaffetz. And I hope--and to my ranking member and my 
colleagues on both sides of the aisle, this report was done. 
We've asked for a copy. The State Department has thus far 
refused to give us a copy. Al Jazeera has it. They print it out 
on their Website. We don't have one here in the U.S. Congress, 
even though I'm holding one that I got off of Al Jazeera. You 
have Patrick Kennedy in a very significant post go on CBS News 
and say that he disagrees with this report. I think it's part 
of our business to understand what does he disagree with, what 
does he agree with. And if the very person who's implementing 
this office isn't totally familiar with it, isn't necessarily 
implementing it, there's a problem. There's a problem.
    Ms. Muniz. Again, I----
    Mr. Cummings. Would the gentleman yield?
    Mr. Chaffetz. Sure.
    Ms. Muniz. I would like to restate, it was a DS management 
report. It hit and touched on DS. Diplomatic Security would be 
better positioned to answer that question.
    Mr. Chaffetz. I think they'd be in a great position to 
answer. And I think next time we have this panel, we should 
include Diplomatic Security. If I had to do it over, I'd 
include Diplomatic Security here as well.
    Mr. Cummings. Would the gentlelady continue to yield to me?
    Ms. Duckworth. Yes.
    Mr. Cummings. Thanks.
    Just one question, Mr. Green, again, trying to get to the 
bottom line, security. When you did your survey, exactly what 
were you--you said you talked to 100 people, you surveyed 100 
people. Can you tell us a little bit about that process so we 
can----
    Mr. Green. Well----
    Mr. Cummings [continuing]. Fully--fully understand and 
appreciate what it was that you did, and what you were telling 
these people, and why you were asking, because that's 
significant? You went to people whose interests--whose 
interests would be to make sure that they were secure; am I 
right?
    Mr. Green. Well, we--we--yes. We interviewed more than 100 
people. We had them come in, and they spread across all the 
bureaus in the State Department and some from outside State. We 
interviewed some of the people that were on the Accountability 
Review Board. We asked different questions of different people. 
Some were organizational questions: Does the Assistant 
Secretary for Diplomatic Security have enough of a role within 
running the organization? There was a lot of emphasis on high-
threat posts post-Benghazi, to establish a special cell for 
high-threat posts.
    Not all of the people that we talked to did we ask about 
the relationship with OBO and others, but many of them we did 
ask that question to, and out of those questions came these 
observations that we laid out in our report.
    And the final recommendation, as I said before, we didn't 
make a determination that Design Excellence should be tossed 
out the window. All we said was before you go a lot further 
with this, we recommend that the State Department do an in-
depth analysis to look at the security implications of this 
program.
    Mr. Cummings. It just seems to me that, you know, a lot of 
times we have departments and individuals disputing issues in 
government, and the people suffer during the dispute. You know, 
at some point we've got to figure this out so that our people 
are protected. I think Members of Congress and certainly the 
public, when they hear the debates, they--you know, they're not 
necessarily interested in watching the sausage being made; they 
want to make sure that people are secure, that the costs are 
reasonable, and that the facility is functional----
    Mr. Green. Yes.
    Mr. Cummings [continuing]. And that we're doing whatever we 
do effectively and efficiently.
    Mr. Green. Right.
    Mr. Cummings. I just think sometimes, you know, it seems as 
if we feel like we've got to argue this and argue that, but at 
the same time, the people who need what we're supposed to be 
yielding, they're not getting it, or if they're getting it, 
they're not getting it in a timely fashion.
    Mr. Green. Well, what our--our report obviously focused on 
security.
    Mr. Cummings. I understand.
    Mr. Green. And as I said early on, if someone can show me 
that we can do it just as inexpensively, just as securely, just 
as fast using Design Excellence, I will sign up tomorrow.
    Mr. Cummings. Thank you.
    I thank the gentlelady for yielding.
    Ms. Duckworth. Thank you.
    Mr. Chaffetz. Thank the gentlewoman.
    I'll now recognize myself. But I want to ask unanimous 
consent to enter into the record the--it's called the Guide to 
Design Excellence; includes a message from you, Ms. Muniz. A 
question for--without hearing any objections, so ordered. We'll 
enter it into the record.
    Mr. Chaffetz. Who at State Department has approved this?
    Ms. Muniz. The Director of OBO approved that document. 
Before I was Director, it was Adam Namm. But I also want to 
make clear that this is a document that was widely briefed 
within the Department with our colleagues in Diplomatic 
Security, was briefed on the Hill, was briefed publicly, and 
was provided widely. So while it's within OBO's authority to 
innovate and to develop programs that help us build the best 
buildings that we can that are cost-effective----
    Mr. Chaffetz. OK. OK.
    Ms. Muniz [continuing]. And are efficient----
    Mr. Chaffetz. I got it.
    Ms. Muniz. That--that is the concept----
    Mr. Chaffetz. I know. And the question that we have long 
term is Diplomatic Security's feeling about that. We'll come 
back to that.
    In response to CBS News, the State Department put out this 
Statement: There has been no evidence that Excellence projects 
take longer to build. In fact, under the Excellence Initiative, 
from the Fiscal Year award to occupancy, facilities will be 
delivered on the same, if not shorter, schedule.
    In a separate part, again in response to CBS News, it says, 
all facilities will be delivered on the same, if not shorter, 
schedules. There is no evidence to the contrary.
    Help me understand, then, why this unclassified document--
help me understand what's going on in Maputo. In Maputo, it 
started as a standard embassy design with an estimated 
development of 39 months, and yet now it says that on March 
28th of 2014, they were changing to Design Excellence, and that 
it was going to take 46 months.
    Ms. Muniz. I don't have the document that you have. I'd 
like to be able to respond to that, but I need to be able to go 
back and look at detailed budgets and schedules.
    Mr. Chaffetz. But this is something--this is the 
frustration. We request this type of document formally, you 
play hide and seek, you don't provide it to us. You make all 
these representations that everything's ahead of schedule; in 
fact, it's probably going to be shorter is what you say. You 
tell that to the world. You put out--you put that out to the 
world. You gave that to CBS News. You let everybody know that, 
oh, no, no, no, no, nothing's behind schedule, and yet I go 
find this document. Why is that?
    Ms. Muniz. As I said, I'd like to look at the case and look 
at the document you're holding to be able to speak 
knowledgeably about that particular project.
    Mr. Chaffetz. Do you dispute what I'm saying?
    Ms. Muniz. I'm not sure what you're saying.
    Mr. Chaffetz. I'm saying that in Maputo, you went from a 
39-month project to a 46-month project. And if you're in Africa 
and don't have the proper security, you're going to feel the 
effects of that.
    Ms. Muniz. Again, I'll have to go back and look at the 
details of that project----
    Mr. Chaffetz. Tell me about----
    Ms. Muniz [continuing]. Before I talk about----
    Mr. Chaffetz. Tell me about Oslo. Is Oslo ahead of schedule 
or behind schedule?
    Ms. Muniz. Oslo has a new contractor working on that 
project.
    Mr. Chaffetz. Is it behind schedule or ahead of schedule?
    Ms. Muniz. It is at this time behind schedule.
    Mr. Chaffetz. And it's a Design Excellence project.
    Ms. Muniz. No, it's not.
    Mr. Chaffetz. What is it?
    Ms. Muniz. Oslo was a project that was developed and could 
not be done as a standard embassy design, because many cities, 
in particular in Europe, have zoning requirements that require 
us to develop buildings differently. That is the case in Oslo.
    Mr. Chaffetz. It seems very convenient that you toggle 
between is it Design Excellence, is it standard embassy design, 
is it or is it not? We don't have that clear definition. There 
are a lot of people and, I believe, some documents out there 
that say it is Design Excellence.
    So help me with what's going on in the Hague. Is the Hague 
ahead of schedule or behind schedule?
    Ms. Muniz. I'd have to look up details about the Hague. 
Again, the Hague is like an Oslo project. The Hague was a 
project that was developed based on--it had to be an adjusted 
design based on city requirements.
    Mr. Chaffetz. Based on Design Excellence?
    Ms. Muniz. No, not based on Design Excellence.
    Mr. Chaffetz. Is it design/bid/build?
    Ms. Muniz. I believe that the Hague is design/bid/build, 
because the requirements in those cities force a very extensive 
development of the project in a way that indicates that design/
bid/build is the better option. That is a condition that we 
find in very many cities, in Europe in particular. We have that 
issue----
    Mr. Chaffetz. And is----
    Ms. Muniz. We had that issue in London, we had it in Oslo, 
we have it in the Hague. But those are projects that were 
started before the Excellence Initiative. Why the--while the 
way in which they were developed, I think, may very well be 
responsive to the environment in a way in which the Excellence 
Initiative would have----
    Mr. Chaffetz. Well, let's go to Kiev in the Ukraine. What 
happened there? We needed some more seats, we needed more 
personnel? What did you do there?
    Ms. Muniz. USAID added an annex in Kiev.
    Mr. Chaffetz. So we added how many seats?
    Ms. Muniz. I don't have that at the tip of my finger.
    Mr. Chaffetz. More than 100, right? More than 100 seats.
    Ms. Muniz. I don't have that at my fingertips.
    Mr. Chaffetz. I do.
    Ms. Muniz. If you do----
    Mr. Chaffetz. It was standard embassy design, and we added 
more than 100 additional seats.
    Ms. Muniz. We added an annex.
    Mr. Chaffetz. Yes. Well, still seats.
    Ms. Muniz. Yes.
    Mr. Chaffetz. Let me go to Mr. Jones. You've been sitting 
very patiently for a long time. I don't think we've asked you 
any questions.
    So let me go to you about Port Moresby, because you were 
the one in your testimony here--let me ask you, if it takes 
longer to build an embassy, we have people in harm's way, and 
it takes longer to build it, do you think that that puts people 
in harm's way or not?
    Mr. Jones. In the case of Port Moresby?
    Mr. Chaffetz. Yes.
    Mr. Jones. Is that the question?
    Mr. Chaffetz. Yes.
    Mr. Jones. The situation in Port Moresby is that we had a 
significant increase in the number of people who would be 
located onsite and the addition of U.S. marines.
    Mr. Chaffetz. OK. So just for those of you that aren't as 
familiar with Port Moresby, we had 41 personnel, and that 
number was going to go up to 71 personnel, correct?
    Mr. Jones. Right. But under law, we are required to 
collocate the mission and would not have been able to do so had 
we only built a building for 41 people.
    Mr. Chaffetz. So there is a way, though, to build under 
standard embassy design an increase in the number of personnel. 
Let's go back as to why--why was the number of personnel 
increased?
    Mr. Jones. At Port Moresby we started with what was 
essentially a standard embassy design. It was a mini standard 
design.
    Mr. Chaffetz. Right.
    Mr. Jones. When we got the increase to add the marines, we 
were unable to----
    Mr. Chaffetz. When did that decision that marines were 
going into Port Moresby become----
    Mr. Jones. I believe that the decision----
    Mr. Chaffetz. When did you get that?
    Mr. Jones [continuing]. To add the marines was in March 
2013.
    Mr. Chaffetz. And do you have documentation for this? Could 
you provide that to the committee?
    Mr. Jones. Yes. When we provide the other documents that 
you've requested, we will include that among it.
    Mr. Chaffetz. OK. So there are no marines there now. And I 
think the public in general has a misconception as to what the 
marines actually do and don't do. They don't go outside--they 
don't go outside the wall. They're there to protect classified 
information.
    In Port Moresby there is an Exxon Mobil project, 
multibillion-dollar project that is being developed to support 
the Chinese. The Chinese have a 20-year contract. And so I 
still don't fully understand or appreciate--and you're not 
necessarily the right person to answer this question, I don't 
want to put you on the spot--as to why we suddenly had to have 
this surge in the number of personnel, but nevertheless, the 
occupancy date for Port Moresby was going to be May 2014, 
correct?
    Mr. Jones. That is correct.
    Mr. Chaffetz. And the cost of that embassy was estimated to 
be what?
    Mr. Jones. I believe the cost of the--all-in cost of the 
original facility was to be somewhere around $79 million.
    Mr. Chaffetz. My understanding it was going to be less than 
$50 million.
    Mr. Jones. OK. The cost to construct the facility itself 
was $49-.
    Mr. Chaffetz. OK.
    Mr. Jones. That includes site--the number I gave you 
includes site costs and things like that.
    Mr. Chaffetz. Right. So we have the site, whether it's 
standard embassy design or Design Excellence. I happened to go 
there in February. The chief of mission has no clue that any of 
this is going on, none of the discussions, no--had no idea. He 
was still anticipating--he understood there was a delay, but 
still thought that during his tenure they were going to be able 
to move into that.
    What is the new date for Port Moresby that they are going 
to move in?
    Mr. Jones. I believe that the new date will be in 2018.
    Mr. Chaffetz. So--and what is the estimated cost?
    Mr. Jones. We don't have a final cost yet, because we don't 
have a completed design.
    Mr. Chaffetz. Because it's not a standard embassy design, 
correct?
    Mr. Jones. No. That's not the issue. The issue----
    Mr. Chaffetz. Are you telling me that this is not Design 
Excellence, that this is under standard embassy design, Port 
Moresby?
    Mr. Jones. No. What I'm saying is that the compound in Port 
Moresby began as a standard facility. It then experienced a 
significant increase in staffing, which prevented us from being 
able to use a standard design. The facility was not capable of 
being modified because it was so small, so it required an 
annex. And it is the addition of the people, the annex and the 
marines that are now making the delivery date in 2018. That is 
based on a cost-benefit analysis that the Department has done. 
That is the fastest time that we are able to get the folks from 
that mission collocated on the compound with the marines.
    Mr. Chaffetz. This is so amazingly frustrating. The 
estimate that--the paperwork that I have, not from you, but the 
paperwork that I have says that this facility now costs in 
excess of $200 million. We're going to spend $3 million per 
seat, per seat, in Port Moresby, Papua New Guinea. Average per 
capita income is, like, $2,500.
    Ms. Muniz. I'd like to take some of these questions. So one 
thing I'd like to point----
    Mr. Chaffetz. Well, I'm not asking you. I'm asking Mr. 
Jones. So I'm going to--I'll come to you. I'll give you plenty 
of time.
    So we're going to spend $3 million per seat in there, and 
they're not going to be there for a good 4 years. You don't 
have a final design. What are they supposed to do for security 
there for the next 4 years while they wait?
    Mr. Jones. We are attempting to get safe and secure 
facilities in Port Moresby on the fastest time schedule that we 
can. We are doing everything in our power to ensure that we're 
delivering safe, secure and functional facilities to the 
mission as expediently and as efficiently as possible.
    Mr. Chaffetz. My understanding, let me share this with the 
ranking member, is we added more than 105 desks in the Ukraine. 
Here we're talking about 30. It cost us about $24 million, and 
now we're looking at a project that was less than $50 million 
to build estimated to go north of $200 million in Papua New 
Guinea. And the consequence to this is they're going to be in 
harm's way for a longer period of time. We're going to have 
less budget and less money to build other facilities in other 
parts of the world. It is behind schedule. And these poor 
people are working in some of the most difficult situations 
I've seen in a very--when I was there, there was an attempted 
carjacking of U.S. diplomatic personnel, while I was there. We 
also had two people who showed up at the door trying to 
represent themselves as somebody that wanted to come see me and 
come see the--this is on a Saturday, dressed in garb that 
represented that they were there to meet people in the embassy, 
because you can walk right up to it. Right across the street, 
multiple times a year, I mean, very close at the pharmacy 
there, armed--armed bandits come in and try to rob that place.
    And there was no communication with that facility there in 
Port Moresby. The chief of mission should not have been getting 
that message from me, that's for sure.
    Ms. Muniz, I think you wanted to say something.
    Ms. Muniz. I wanted to point out that, as we explained 
earlier, the forces causing the change to the design are 
outside of the Bureau. We talked about Iraq earlier. When 
you're in any environment where things are changing rapidly, 
you have to adjust to those changes. There are costs related to 
those changes.
    A decision was made 2 years into a construction contract to 
add marines to a facility, to add significantly to the staff, 
to add classified capacity. That adds an extraordinary amount 
of expense in an existing contract.
    I think that when we have detailed information, and you 
have received the detailed information that you've asked, we 
can go over those costs in detail, but I think given the 
location of Papua New Guinea, given the fact that we learned 
that all materials and labor need to be shipped into Papua New 
Guinea, given the environment, the discovery of natural 
resources there have led to greater competition in a small 
market, those cost increases can be explained when a mission 
doubles in size.
    Mr. Chaffetz. I have gone way over time. I have more on 
this issue, but I'll now recognize the ranking member Mr. 
Cummings.
    Mr. Cummings. Mr. Green, where do we go from here? I mean, 
really. I mean----
    Mr. Green. I--you know, I think unfortunately where we go 
is we need to see the dollars and the time that it's going to 
take to do Design Excellence. We don't have that. We're 
comparing apples and oranges.
    You know, I'm not so concerned personally with the 
appearance of embassies. The State IG did a report in 2008, and 
the key findings were essentially that people were happy with 
the appearance, and the host countries of those 12 embassies 
that they looked at were happy with the appearance, so that's 
not what I'm worried about.
    What I am worried about, and I think what DS is worried 
about from a security standpoint is can you actually produce 
these things in the same amount of time with the same security 
at the same cost. And until we know that--and I don't know how 
you get to it before you do some of them, but I think the 
chairman raised an issue, what is--what is cost per desk? You 
know, what is cost per desk under standard embassy design? We 
have some good figures on that, I'm sure. What is cost per desk 
under Design Excellence? Until we can compare apples and 
apples, you know, I think there's going to be--continue to be a 
lot of skepticism that you can do this as fast and as cheap.
    Mr. Cummings. Ms. Muniz, I've listened carefully, and I am 
concerned, and I think we all should be concerned, when we 
don't get documents. And it becomes very frustrating. Time is 
valuable.
    And, you know, I listened to Admiral Mullen and Ambassador 
Pickering when they talked about the report, the ARB report, 
and, you know, it was some of the most--I think it was 
Ambassador Pickering that said--I asked him why was he--why did 
he agree to get on that board, and he talked about the fact 
that--the review board--that he felt that he owed it to his 
country and to those who died and their families to make things 
better so it didn't happen to anybody else.
    And in some kind of way--I mean, when I listen to you, Mr. 
Green, it makes sense that if I've got something that's already 
designed and--I mean, it's--I've got it, I've got something 
that I'm working with, and I guess you've had years to make any 
adjustments that you would see, right? I mean, is that right?
    Mr. Green. Yes, sir.
    Mr. Cummings. In other words, you've got--it's like you've 
got this house, you use the same--pretty much the same 
material, same structure over and over again, and then--but in 
the meantime, if there were problems, you can make those 
adjustments or--and just correct me if I'm wrong. I'm trying to 
put this in simple language for the American people. Or if you 
want to--if you're in a country where there's some unique 
situations, where you need a different kind of door, you know, 
you may have some height requirement or whatever, but still 
using the basic same model; is that right?
    Mr. Green. Yes. Correct.
    Mr. Cummings. So logic tells me that if I'm using the same 
model, then it's--I mean, it's just logic that it would be 
quicker if I then go to another country and use that model. 
That's basically what you're saying, right?
    Mr. Green. That's the logic that makes sense.
    Mr. Cummings. And so I think for the State Department, Ms. 
Muniz, it becomes a difficult argument to sell not only to us, 
but to the American people, because the American people, they 
don't know everything that you know. So you've got--it's easy 
for us to--I mean, and I can understand, because it's your 
expertise and what you all do, but sometimes you have to break 
this stuff down so the people get what you're talking about, 
because to them it makes no sense. And I'm not saying--I'm 
saying with the--with limited knowledge, it makes no sense. 
With all of your information, it probably makes a lot of sense.
    And so we find ourselves in a situation where you've got 
what Mr. Green's saying, we've got what you're saying, and--but 
the bottom line is, going back to what Mr. Green has said, if 
you had the data to show that we could get the same security, 
costs----
    Mr. Green. Time.
    Mr. Cummings [continuing]. Same time, all those factors 
pretty much the same, that he would sign on the dotted line. Am 
I right?
    Mr. Green. That's correct.
    Mr. Cummings. So why can't we get the information? There 
seems to be some reluctance, and I don't know why that is. Can 
you help us with that?
    Because, see, one of the things that happens here, and I've 
lived long enough and seen enough and been up here long enough, 
we can get distracted from the mission by getting caught up in 
a lot of--and I'm not saying we don't have to deal with those 
issues, but it doesn't allow us to do what we're supposed to be 
doing, and that is providing security. So we've got, oh, why 
didn't I get this report or what? I mean, they're legitimate 
questions, they really are, but at the same time, that's the 
time that we could be taking our energy and focusing on making 
sure that our folks are safe, because that's what the American 
people want.
    So go ahead.
    Ms. Muniz. I think that's absolutely right, and I'd be 
happy to explain in more detail why it is that if we award 100 
percent design on the date of award, the period of performance 
is shorter, and we could have people into safer facilities 
faster.
    What it means is that if we know that our appropriation is 
fixed, we know which buildings we're doing, it might take us 
longer to do the design. We're going to be looking closely at 
the requirements, what are the materials that--that are going 
to work in that environment, how do we put that building 
together in that environment. But from the date of award, when 
we award that project, it's not going to include any design 
time; it will be no longer than it would be with the design/
build standard embassy design, and it will likely be shorter. I 
could go into more detail, we could provide the----
    Mr. Cummings. There's one little thing----
    Ms. Muniz [continuing]. Analysis----
    Mr. Cummings [continuing]. That--whoa, whoa, whoa, whoa. 
Rewind. There's one little thing that bothers me, and that is 
why? In other words, if I've got my model, it is working, I 
know what it's going to cost, I know how much time it's going 
to take, am I missing something that I then--then I have to go 
to something else? So, OK, oh, let me run and do something 
else, when I've already got this--I've got it finally. You 
follow me?
    Ms. Muniz. Yes. I think it's a fair question. And what I've 
tried to lay out is that the standard embassy design was a 
fixed solution based on an average hypothetical size embassy or 
consulate. We build embassies and consulates in every 
environment, whether that's because it's very hot, whether it's 
because it's very cold, whether because some systems are going 
to work there on the seafront and other systems are not going 
to work in a completely different environment. We're looking at 
the real requirements of missions and thinking about how do we 
build the best buildings for those missions.
    The standard embassy design was a good fixed solution, but 
it also required us to build free-standing warehouses 
regardless of the location. There are some places we don't need 
a warehouse. Why build a warehouse if we could get----
    Mr. Cummings. Then you take it off. Am I right? Right? I 
mean, you take it off. If I don't need a garage, if I got a 
house with a garage, and I suddenly don't need a garage, I take 
the garage off.
    And, by the way, it's not just one design, right? There are 
a lot--several designs, right?
    Ms. Muniz. There's one.
    Mr. Cummings. There's one? OK.
    Ms. Muniz. There's one standard embassy design.
    Mr. Cummings. So you just take the garage off.
    Ms. Muniz. All of those things taken together--and if I 
could try to sort of put or describe the Excellence Initiative 
in a nutshell, it's really to say that we are taking those 
lessons learned from the standard embassy design, we're taking 
those modular pieces of it, but we're providing a lot more 
flexibility in how those could be put together in a way that's 
meaningful. Again, you build a very large embassy, having these 
two bars is not efficient. You're cladding two buildings as 
opposed to one. You're securing two separate buildings almost 
as opposed to one.
    So I think that using architects, engineers, folks within 
the Department, our security professionals, we look at each 
case and come up with the best and the most efficient solution. 
In many ways what the Excellence Initiative is doing is exactly 
what you're suggesting, right? It's taking sort of the baseline 
and modifying that baseline in the way that is sensible for the 
mission.
    Right now the standard embassy design or the standard 
embassy design that we're moving forward from was a very fixed 
solution, again, very horizontal: 10 acres, warehouse. That's 
not always the best solution in all of the environments.
    And I--and I'd like to also State that the cost per desk, 
we use that cost per desk to develop our budget, so we have a 
cost-estimating office in our Bureau. When we build a budget, 
whether it's a standard embassy design budget or an Excellence 
Initiative project, they tell us, you know what you've spent 
historically for this many desks and this many people in this 
environment? This much. That's what your budget is. We're going 
to work to that same budget under the Excellence Initiative or 
under the standard embassy design.
    Mr. Cummings. Ms. Muniz, let me tell you something. You 
just--you helped me, what you just explained. Now I'm finally 
getting--so in other words--you know, what I thought you were 
going to say is that circumstances change, that we have new 
technology. I thought that's what I was going to hear you say, 
that new technology, better use of certain--in other words, 
better materials, all those kind of things might go into--and 
I'm not--I don't know anything about building, so--but all 
those things might go into changing the box. And what you're 
saying is is that you may--help me if I'm wrong. You may look 
at the box, but you're forever changing the box. It's not that 
you don't look at it, you don't take it into consideration, but 
it may be changed substantially. Is that--all you're talking 
about is a brand-new box, period?
    Ms. Muniz. I would say that it depends. So, again, if we're 
looking at a very large mission, to have these--the standard 
embassy design and to put that in place would simply not be 
efficient.
    London is a good example in the case that not only are we 
building a cube, which is much more efficient than sort of two 
separate boxes that go up, which would require twice as much 
cladding, but we're also using materials that make the building 
significantly lighter; that reduce the size, the weight and the 
expense of the foundation that needs to be put down. The 
curtain wall reduces the weight, which also influences the 
foundation, and it's all able to go up faster than a 
traditional concrete building would have been able to go up in 
that place. So I think it's both materials and base building in 
certain cases.
    Mr. Cummings. Last question. Is it your--do you anticipate 
being able to take, say, that--a box--London is, I know, very 
unique, but other--that perhaps the creation of another box or 
something that you can use in more than one place, do you 
follow what I'm saying, as you're developing? And how does that 
play into that? Do you follow me?
    Ms. Muniz. Yes. I think I do.
    Mr. Cummings. In other words, if you have a--if you build 
an embassy, you do all the things you just said. You say, OK, 
now we've got great design, we've got security. This is the 
best buck--we get the best bang for our buck. Time, everything 
is straight. Do you anticipate being able to use, say, for 
example, that model, a model like that, somewhere else? Do you 
follow me?
    Ms. Muniz. Yes. Let me use an example, which may be too 
common, but I think it sort of demonstrates the point. There 
was a time when most people who drove had a Model T. It was a 
great car. It was a simple car. As we evolved, cars got better 
and better. They evolved, and they also sort of separated it 
out into the different types of cars. So today, rather than 
going with the Model T, you could go with a version that is 
much more secure, much more safe, but you could also choose to 
have an Austin Mini in one case, and you could go with an SUV, 
but those things depend on where you are. One, you want to be 
in a small urban environment, you're a small mission, you could 
go with a smaller size and still meet all your requirements and 
be more efficient to run, but there are those other times when 
you're going to need the larger solution, you're going to 
need--you're going to need the SUV.
    And I think that being able to put the appropriate solution 
with the mission, and to consider those things, and to make 
sure that we're appropriately spending the money that the 
taxpayer gives us, and considering not just first costs, but 
long-term costs, I think that's what we're talking about doing.
    Mr. Cummings. Thank you very much. Thank you.
    Thank you all for being here.
    Mr. Chaffetz. Recognize the chairman of the committee Mr. 
Issa.
    Chairman Issa. Thank you. And for the--Chairman Chaffetz 
and Ranking Member Cummings, I appreciate your questioning.
    And fortunately I came back in just in time to have you 
talk about automobiles. And I agree that sometimes--I actually 
don't think the Fiat 500 or the Morris Mini is ever appropriate 
from a safety standpoint for our men and women in the State 
Department.
    But having said that, I certainly understand the difference 
of size and scale and some of the urban versus rural 
considerations, but, Mr. Green, those considerations really 
aren't what we're asking about today. What we're asking about 
is do you, to the greatest extent possible, use a mass-
production concept, which is what standard build is? It's about 
do you build a one-of-a-kind formula race car that's beautiful 
and fast and has unique characteristics, and each one is 
different--as a matter of fact, the secrets aren't even shared 
between formula racers--or do you build a Toyota Camry in order 
to get a--or a Ford Focus or a Ford 500? Do you build a mass-
produced, consistent, reliable, understood, bugs worked out, 
repeatable product so that you get a highly reliable product 
that can be maintained throughout the system, standard windows, 
standard other characteristics if possible, in order to get a 
good product at a better price?
    And I switched to Ford quickly when I realized it is about 
Henry Ford's model of greater value for less cost, isn't it, 
Mr. Green?
    Mr. Green. Yes, it is. And I think it's like standard 
embassy design might be the Chevrolet Suburban, but, when 
necessary, it becomes the Escalade.
    Chairman Issa. And there are options to further uparmor----
    Mr. Green. Yes.
    Chairman Issa [continuing]. And so on.
    Mr. Green. Yes.
    Chairman Issa. Ms. Muniz, one of the other questions, Inman 
is all about security, right, the so-called Inman designs?
    Ms. Muniz. I'm not as familiar with the Inman designs as 
that program was over long before I came in.
    Chairman Issa. Well, let me tell you what I was told 14 
years ago when I came in and started going to embassies as a 
member of Foreign Affairs. We didn't used to think of embassies 
in the same security sense we do now. And what we discovered, 
the Beirut barracks, and the Marine barracks, and the Beirut 
embassy bombing and others taught us was there is no substitute 
for setback. Do you understand that as the person making these 
decisions?
    Ms. Muniz. Yes. Absolutely.
    Chairman Issa. So when you talk about urban versus rural 
and location--and I was just in Britain where setback is highly 
compromised, and they were compliant, but they made a 5-acre 
decision and went vertical and did the best they could, 
including the famous moat, part of--and, in fact, some crash 
considerations. Those safety considerations, any time you give 
up setback, you have to tradeoff higher cost for that setback, 
don't you?
    Ms. Muniz. You do, but we are not suggesting under this 
program to ever trade setback.
    Chairman Issa. OK. So when you talk about large footprint, 
which you did, and small footprint, the truth is that standard 
build--and I'll go back to Mr. Green for part of this--is about 
starting off with a footprint sufficient for current and future 
embassy considerations, including possible add-ons, in a 
country so that we can make a 50-year decision on sovereign 
U.S. soil, isn't it?
    Ms. Muniz. Yes.
    Chairman Issa. Mr. Green?
    Mr. Green. Correct.
    Chairman Issa. I was on this codel--and I apologize, I was 
able to take a Democratic staffer, but none of my counterparts 
were able to attend because it was short notice--but I was 
struck by something that I want to make sure is in the record 
today, and what was talked about earlier in Papua New Guinea: 
changing characteristics.
    When they were talking about--and they flew in people from 
your offices to be there where we were in London. They started 
talking about, well, you know, it's individual, and we have to 
work it out. And I suddenly realized what you're doing is 
you're custom building more and more. You're going into a rut, 
which is instead of saying, State Department will plan, 
including excess space if appropriate--we will plan for the 
anticipated 50-year necessary facility, and we want to make 
sure that it's very much understood, instead what they were 
talking about was one group might need a little more here, and 
somebody may--which suddenly hit me what you're talking about 
is you're talking to the current--according to what I was told, 
you're talking to the current people in an embassy, the current 
Ambassador, the current staff, in order to find out what they 
want as part of this design characteristic.
    And that is one of the things that I came back profoundly 
concerned about from the trip to London. It wasn't the London 
facility, because at half a million square feet, there's a lot 
of room, but when you're looking at embassies and starting to 
ask, well, should it be plussed or minused based on unique 
character--or current characteristics, aren't you inherently 
creating that downstream problem that you're designing based on 
what an ambassador and their staff want, not based on a plan 
that looks 50 years in the future? And I'd like each of you to 
answer that to the extent you can.
    Ms. Muniz. I think it's a great question, because it really 
addresses one of the enduring challenges of the Department. 
We're trying to build buildings for 50, 100 years, and things 
change over that time period.
    I think that where we can financially, and based on the 
urban environment or the environment where we're building, we 
do try to buy larger sites, and we actually make a deliberate 
effort, and this was not always done with the standard embassy 
design. We site the building in such a way that we know where a 
later annex will go. For years, maybe forever, it'll be a lawn, 
but we know in advance how we might use that space so that it 
gives us that flexibility.
    The other thing that we've done under the Excellence 
Initiative, and I think this is something that is meaningful 
and reduces costs in the long term, so we're looking at things 
like using raised floors, using demountable partitions, making 
sure that infrastructure is sized in a way that, within a given 
envelope, you could have a significant increase in staff with 
very little cost. That wasn't true with the older model.
    Again, I think the standard embassy design taught us a lot, 
but I think we can improve on it. We can improve on it in 
meaningful ways that give us more flexibility for the long 
term. And I think----
    Chairman Issa. Right.
    And Mr. Green, as you respond to that question, I just want 
you to include from your research from your committee's 
activities, in fact, isn't that what standard build is supposed 
to do is to include that? So isn't it ``mend it don't end it'' 
rather than staying standard build didn't include future 
annexes and expansion in their consideration?
    Mr. Green. No. It's a continuously moving standard that is 
done.
    Let me just respond to your earlier question, though. And, 
you know, what do we need 50 years out? You know, the 
Ambassador wants a bigger latrine in his office or we want 50 
consular windows instead of five. That changes all the time. I 
mean, we saw it here today. It changed with Papua New Guinea. 
You had a plan to do something and all of a sudden the 
Department says, nope, we need more for whatever reason.
    There's rightsizing that goes on constantly within the 
Department. There's the much publicized, but I'm not sure how 
much it's occurring, the pivot to Asia. What does that mean for 
the those embassies in Asia? More people. Well, you know, 5 
years from now it might be a pivot somewhere else. I don't know 
that we're ever going to reach the perfect solution to say that 
we could build something that's good today, and it will be good 
even 10 years from now.
    Chairman Issa. Thank you.
    And Mr. Chairman, I think the point that your research and 
what we're hearing today is all about is, that as you 
standardize and drive down the cost per square foot, the 
ability to build that few extra square feet and the flexibility 
is inherent in it. As you drive up the square foot cost, you 
inherently are building smaller and tighter.
    And tight-sizing is not what we need for flexibility; it's 
rightsizing with a plan to expand or to add in and hopefully as 
you continue your research and we get the numbers, we'll begin 
seeing how standard build can be made to do just that.
    And I thank you for your indulgence and yield back.
    Mr. Chaffetz. Thank the chairman. We'll now recognize a 
very patient member from Michigan, Mr. Bentivolio, for 2 
minutes. No, I'm just teasing. 5 minutes.
    Mr. Bentivolio. 5 minutes, good. Thank you, Mr. Chairman.
    During our last conversation, I forgot to ask you a very, 
very important question when it came time, when we were 
discussing London, and you clarified it's going to cost about 
$800 million, and you don't look at how many employees it's 
going to house, you call them desks; is that correct?
    Ms. Muniz. Yes.
    Mr. Bentivolio. OK. So how many desks in the London 
embassy?
    Ms. Muniz. I'm sorry, I believe 644.
    Mr. Bentivolio. Six hundred and forty four. So what does 
that work out to? Let's see, $800 million divided by, how many 
did you say?
    Ms. Muniz. Six hundred and forty four desks.
    Mr. Bentivolio. That works out to be, what, $1 million a 
desk?
    Ms. Muniz. Some of our costs can be very high including for 
secure space.
    Mr. Bentivolio. A million dollars a desk? OK. But, I 
understand the risk in London and the cost per square, or is it 
meters, per meters. What's that cost? Do you know the 
breakdown, how much it costs per meter or per square foot? I 
know here in America we look at the square foot cost.
    Ms. Muniz. Right. Right. For London, I don't have the 
square foot cost at the top of my head. I would like to add for 
London, though, for those members who may not be aware----
    Mr. Bentivolio. I think you said that you're selling 
property to cover the cost of the $800 million embassy, 
correct?
    Ms. Muniz. Yes.
    Mr. Bentivolio. You did say that, OK. So you're in these 
old buildings now, am I correct?
    Ms. Muniz. Yes, these are old existing buildings at the 
embassy.
    Mr. Bentivolio. And if it runs over, the London building 
takes longer than expected, what's it going to cost to house 
our employees in the older buildings per month?
    Ms. Muniz. We're not expecting that to happen.
    Mr. Bentivolio. You're not expecting. Have you--seriously, 
for the life of me, and I'm sure there probably has been one or 
two Government contracts that didn't go over budget and didn't 
go over or came in on schedule, but OK.
    So let's just ask you this: How many work orders or change 
orders are pending or in process in the London embassy new 
construction? Change orders do delay a project, don't they? Or 
do you add that to the, you know, it's another--it's a change 
that's going to take longer so we'll just move the schedule, 
completion date out.
    Ms. Muniz. As you might imagine, with over 200 projects in 
construction, I don't have the number of change orders in 
London. But what I would like to make clear is that while 
delays pose, like on any project, a certain amount of risk, the 
Department made the decision in 2006, many years before I was 
there under a different administration that this was the best 
value for the taxpayer.
    And I think it was a great decision. We, for $50 million 
more, are getting a brand new embassy that meets all of the 
security standards in exchange for property that we had been in 
for years.
    Mr. Bentivolio. So you're going to meet all the security 
standards in London?
    Ms. Muniz. Yes.
    Mr. Bentivolio. Versus not in Phnom Penh or some of these 
other countries that, well, seem to be, look to me maybe in the 
future a greater threat.
    And let's talk about that threat. We had, a while back, we 
had some Secretary of State people tell us they don't do a risk 
analysis when it comes to risks in the country that they're 
housed, thus Benghazi, they didn't really read what was 
happening and a lot of our Americans were killed.
    So do you do a risk analysis every day in, you know, what 
the dangers are outside of the embassy no matter what country 
you're in? But wait a minute. I'm sorry. I just answered my own 
question. You don't do that, do you? What you do, apparently, 
is in places like London, you take every risk imaginable and 
come up with a building that's worth $800 million at a cost of 
$1 million per desk.
    You know, I can't really, I'm just thinking about the 
soldiers in Iraq. You know, we looked at the risk out there and 
if we thought the risk was greater, and by the way, they shot 
rockets at us once a week, we put these concrete barriers in 
front of us, sandbags and we'd adjust and I'm sure, because of 
curb appeal, we can do those things a little nicer, a little 
fancier, and take every single building including a modular or 
cookie-cutter design and add to that building outside to 
address any risk that, well, if you actually looked at the risk 
outside of your embassies and addressed them, you could take 
proper precautions.
    But I will say, and I know my time is running out, Mr. 
Chairman, but you have always had at every embassy in the world 
the best security system you could possibly buy. It's called 
the United States Marine.
    Thank you very much, Mr. Chairman.
    Mr. Chaffetz. I thank the gentleman.
    I'm now going to recognize myself in consultation with Mr. 
Cummings here. Just a couple quick things and then we will, I 
promise we will end.
    I do have a question about London. London is unique. 
Beijing was unique. There are some iconic properties. There are 
some amazing relationships, security needs. That's understood. 
There's been a suggestion that you're still on time in London 
and on budget in London. What is your current assessment of 
where we're at in London in terms of budget and time?
    Ms. Muniz. That's exactly my assessment, that we're on 
budget and on schedule.
    Mr. Chaffetz. What about the VAT issue? Where are we at 
with the VAT issue?
    Ms. Muniz. I'd like to keep that conversation limited 
because our conversations with our counterparts in Britain are 
sensitive, but I would like to say that we're making good 
progress, and we are comfortable that we're within the budgets 
on that.
    Mr. Chaffetz. And I appreciate that. I see that as a 
potential threat. They have a, I believe it's a 20 percent VAT 
which could obviously be a huge and major issue and something 
we would appreciate if you'd keep us apprised of.
    I had an opportunity to visit Dubai, which was one of the 
last standard embassy designs. What do you find wrong with the 
facility in Dubai?
    Ms. Muniz. I don't know that particular facility. So I 
wouldn't be able to address it, but I would like to say that 
there are many standard embassy designs that I think work well 
for their missions. I think there's some that could work 
better, and I think this initiative is about improving on 
something that was good and that did a lot of good. So I could 
look at Dubai more closely and get back to you with comments, 
but I don't have any in particular, not knowing it in great 
detail.
    Mr. Chaffetz. The general concern here is it just doesn't 
make commonsense to me, it's just not commonsense to suggest 
that we're going to spend more time on design and ultimately 
that's going to take a shorter period of time. I just--I still, 
and we'll followup, and we've been talking for hours here, but 
as a followup, this is just conceptionally, I just don't 
understand it. There have been some suggestions that standard 
embassy design was just one-size-fits-all. That's not true. 
That's never been true. We build nearly 90 different buildings.
    And one of the things that drives me personally, and I 
shared this with Mr. Cummings and others, one of the things 
that drives me on this is that you have multiple GAO reports 
and an Inspector General report that says, my goodness, 
standard embassy designs, they're going faster and they're 
generally coming in under budget. We never get reports like 
that.
    And yet, I look at the State Department and they say, but 
we're going to totally scrap that. We're going a different 
design, different way and we're going to focus on architecture 
because architecture is diplomacy.
    You can shake your head no, but that's the video that the 
State Department put out. That is the video they put out. 
You're shaking your head.
    Ms. Muniz. Because as I explained, we are committed to 
being on those same budgets. We're committed to that schedule. 
We're committed to meeting all the security requirements. I 
just know that we can build even better buildings, right. What 
we're doing is what we should be doing, what bureaucrats should 
be doing, we are trying to improve on a good product. And you 
rightly pointed out, the standard embassy design did require 
modifications for different--we're taking that a step further 
and making sure that it is not a fixed envelope, that it takes 
all of the lessons learned from that and allows us to modify 
our buildings in a way that's smart for the mission, smart for 
the taxpayer and smart for the long term.
    Mr. Chaffetz. And I really challenge those assumptions. It 
will play itself out. I don't believe they'll be faster. I 
think we have strong evidence that it's taking longer. I think 
the consequence is it will cost more, and I think the other 
consequence is we're going to have more people in harm's way.
    If you brought the people from Papua New Guinea here and 
lined them up and had them raise their hand and say, which 
design would you like? They just want to be safe. They just 
want to be safe and secure and it's going to be the most 
opulent and extravagant building in that country under the 
standard embassy design and those modifications could have been 
there.
    I appreciate the dialog. This is the general concern. You 
said it in response to Mr. Cummings, the design portion will 
take longer. So again, the consequence, I think, will be more 
people in harm's way, will take longer, it will be more 
expensive and we'll have ongoing security concerns.
    I really do appreciate your participation here. I have no 
doubt about the sincerity of wanting to come in under budget 
and on time. I just don't think you can get from here to there 
and I find very few people that agree that you can get there. 
That's why we need the documents, that's why we're going to 
continue to push the Inspector General and the GAO to continue 
to look at this. It's why we're going to continue to have some 
hearings on this.
    So I do appreciate all your participation here. I know you 
care deeply about your country and the work that you do and 
you're passionate about that. We want people that are 
passionate about that. But we also have an obligation to have 
this back and forth. It's what the oversight committee is all 
about. It's what the Congress is all about. It's part of the 
process that makes this country unique and better and the 
greatest country on the face of the planet.
    So I thank you again for your participation. We look 
forward to getting the documents from the State Department 
sooner rather than later and this committee stands adjourned.
    [Whereupon, at 1:16 p.m., the committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
